<html>
<title> - THE STATE OF DEMOCRACY AND THE RULE OF LAW IN THE AMERICAS</title>
<body><pre>[Senate Hearing 106-235]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-235
 
       THE STATE OF DEMOCRACY AND THE RULE OF LAW IN THE AMERICAS

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON WESTERN HEMISPHERE,
                  PEACE CORPS, NARCOTICS AND TERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 12, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                     U.S. GOVERNMENT PRINTING OFFICE
59-862 CC                    WASHINGTON : 1999



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                  SUBCOMMITTEE ON WESTERN HEMISPHERE,
                  PEACE CORPS, NARCOTICS AND TERRORISM

                   PAUL COVERDELL, Georgia, Chairman
JESSE HELMS, North Carolina          CHRISTOPHER J. DODD, Connecticut
RICHARD G. LUGAR, Indiana            BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Abrams, Hon. Elliott, president, Ethics and Public Policy Center, 
  former Assistant Secretary of State for Inter-American Affairs.     3
    Prepared statement of........................................     6
Einaudi, Hon. Luigi R., visiting senior fellow, Inter-American 
  Dialogue, former U.S. Ambassador to the Organization of 
  American States................................................     9
    Prepared statement of........................................    12
Sweeney, John P., Latin America policy analyst, the Heritage 
  Foundation.....................................................    16
    Prepared statement of........................................    20

                                 (iii)

  


       THE STATE OF DEMOCRACY AND THE RULE OF LAW IN THE AMERICAS

                              ----------                              


                        WEDNESDAY, MAY 12, 1999

                           U.S. Senate,    
        Subcommittee on Western Hemisphere,
              Peace Corps, Narcotics and Terrorism,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 3:03 p.m., in room SD-562, Dirksen 
Senate Office Building, Hon. Paul Coverdell (chairman of the 
subcommittee) presiding.
    Present: Senator Coverdell.
    Senator Coverdell. I am going to call this meeting of the 
Foreign Relations Subcommittee of Western Hemisphere to order.
    I want to thank Mr. Elliott Abrams, who is President of the 
Ethics and Public Policy Center, former Assistant Secretary of 
State for Inter-American Affairs; Ambassador Luigi Einaudi, 
Visiting Senior Fellow at the Inter-American Dialogue and 
former U.S. Ambassador to the Organization of American States; 
and Mr. Jack Sweeney, Latin American Policy Analyst at The 
Heritage Foundation for joining us today.
    A few logistical notes. I will read a brief opening 
statement. They have called for a series of stacked votes at 4, 
which essentially would give us until 4:15 or 4:20 before I 
would have to vote. We were scheduled from 3 to 5. So, I think 
we ought to try to accomplish the essence of what we are trying 
to do in that timeframe rather than trying to reassemble. It 
will be best for your schedules as well as ours.
    That might mean that some of the questions that we would 
entertain would be made available to you in writing 
subsequently, and it is your decision as to whether or not you 
would choose to respond to them or not, at your convenience.
    Let me begin with this brief opening statement, and we will 
go to the presentations of the three of you.
    The purpose of the hearing today is to take a broad look at 
the state of democracy in the Americas and to focus on some of 
the challenges that currently confront democratic institutions 
and the rule of law in the hemisphere. I welcome the 
opportunity to hear from our distinguished panelists about the 
progress this hemisphere has made toward greater political and 
economic freedom and about the obstacles which remain.
    Over the last 20 years, Latin America has experienced an 
incredible political and economic transformation. The 
statistics are telling. In 1981, 18 of the 33 nations in the 
hemisphere were ruled by some form of authoritarian regime. 
Today all but one, Castro's Cuba, have freely elected heads of 
government, or in the case of Paraguay, a President who 
constitutionally succeeded an elected President that resigned.
    In almost all cases, greater political and economic freedom 
are the rule and not the exception, but we all know that 
democracy is not as simple as one free election and that the 
rule of law is not established overnight. The growth and 
preservation of democracy is a process in which civil and 
political institutions, a free press, a strong and independent 
judiciary, and an open economy, to name just several are 
strengthened and institutionalized. The end result is a stable 
and responsive democracy.
    Despite the way the democratization that has swept over the 
hemisphere, areas of serious concern remain. Indeed, it is 
clear from recent developments that there are very real and 
current threats to democracy in the hemisphere.
    We need look no further than Haiti to see this. In the past 
2 years, Haiti has been without a fully functioning government. 
Political killings and intimidation appear to be on the rise.
    In Paraguay, previously mentioned, democracy recently had a 
very narrow escape from disaster, though it appears that the 
new government is on the right track and that the rule of law 
has been restored.
    Colombia is also a great concern and deserves far more of 
our attention. Continued civil conflict, along with the illicit 
drug business, represents perhaps the greatest threat to 
democracy and regional stability in the hemisphere. Look at the 
numbers. More than 38,000 Colombians have been killed in its 
34-year civil war, and according to the State Department, 
300,000 Colombians were internally displaced last year. When 
compared to the situation in Kosovo, this conflict should also 
demand our attention.
    I also want to mention several other issues of concern, 
including the increasing power and impunity of the drug cartel, 
economic instability, abuses of freedom of the press, and lack 
of judicial reform. All in their own way help to undermine the 
rule of law and threaten regional stability.
    Let me conclude my remarks by saying that we are here today 
because our hemisphere faces serious challenges to democracy. 
The progress of the past two decades must continue and must be 
solidified. Our neighbors to the south have worked hard to 
establish democratic institutions and to allow democratic 
principles to take root. Our country has also played an 
important role in encouraging and aiding this process, but our 
job is unfinished.
    We must continue to work with our friends in the hemisphere 
to strengthen their institutions and to preserve the progress 
that has been achieved. We have all fought hard for democracy 
in the hemisphere. We must not turn our backs now.
    I look forward to hearing from our three distinguished 
witnesses. I think I would like to begin in the order in which 
I introduced them. I would turn to you, Secretary Abrams.

STATEMENT OF HON. ELLIOTT ABRAMS, PRESIDENT, ETHICS AND PUBLIC 
 POLICY CENTER, FORMER ASSISTANT SECRETARY OF STATE FOR INTER-
                AMERICAN AFFAIRS, WASHINGTON, DC

    Mr. Abrams. Thank you, Mr. Chairman. Thank you for the 
invitation and thank you for holding this hearing. I think we 
sometimes wait until the crises happen rather than try to talk 
about the underlying events in the region before crises are 
upon us.
    I also want to say it is a great pleasure to be sitting 
next to a former colleague at the State Department, Ambassador 
Einaudi, who is one of the country's most distinguished 
diplomats in Latin America.
    When you ask how is democracy doing in Latin America, the 
answer can be, compared to what? I think you are quite right in 
saying compared to the situation 15 or 20 years ago, it is 
still doing very, very well. But there are, as you point out, 
some alarming trends, and I guess I would raise two points.
    The first is that though we are, I think, pretty good in 
the hemisphere at dealing with coups, with sudden actual coups 
that throw a government out or change a government the way 
President Serrano tried to do in Guatemala, for example, or the 
kind of thing that happened in Paraguay. There is a reaction 
from us, from neighboring countries, in the case of Paraguay, 
the MERCOSUR countries, from the OAS. But that is when things 
are in extremis.
    We are not so good at what I guess I would call a slow 
motion coup where there is not anything as dramatic as a man in 
uniform walking into the Presidential palace. Here I suppose 
the example I would give is Peru today where President Fujimori 
is trying to seize an unconstitutional third term and using the 
military and the police and the intelligence service to do it. 
Freedom House just rated the press in Peru, along with the 
press in Cuba, as the only two that are not free in the whole 
hemisphere.
    I think we have been a little bit slow in our reactions 
here and in the rest of the hemisphere as well. In the bad old 
days, generals never criticized each other, 25 years ago, for 
obvious reasons. Nowadays, the democracies ought perhaps to be 
a little more supportive of each other I think and more 
outspoken when this kind of thing happens. The human rights 
groups have been very vocal. Human Rights Watch, Freedom House, 
Amnesty International, the Committee to Protect Journalists in 
a case like Peru have been extremely vocal, but the governments 
have not, and our Government I think probably not as vocal as 
it should be. So, this question of the less dramatic situation 
is one that I think we need to focus on.
    The second point I would make is we probably need to focus 
more on the question of rule of law as opposed to free 
elections themselves. We are pretty good at free elections even 
in difficult cases. The hemisphere, as you said, is 
characterized by free elections, and we are very good, we in 
the United States and the OAS as well, at helping hold a free 
election, at sending down observers and printing ballots and 
really almost guaranteeing that there is a genuinely free 
election. What is a lot harder is the reform of the judicial 
proceedings, broadly defined, so that the rule of law is really 
established.
    As I think back to where we were 15 or 20 years ago, we 
were rightly optimistic about free elections and even generally 
about freedom of the press because if the government will just 
let go, a free press will develop. But the rule of law has been 
a great deal harder because more people are involved. Not just 
the government, the judges, the prosecutors are involved. There 
are a lot of people involved in the system, and the 
opportunities for corruption are very great. We see, of course, 
that in the context of drugs because there is so much money 
floating around, the resources are there to corrupt the system.
    I think here I would just say a word about Haiti, which you 
mentioned in your opening statement, and which is one of the 
worst cases from the democracy point of view. You may recall in 
1994 when we intervened in Haiti, one of the reasons stated was 
that those generals were involved in drug trafficking. Now it 
is 1999 and the amount of drugs going through Haiti has 
skyrocketed. In fact, it is estimated that something like 20 to 
25 percent of all the cocaine coming to the United States comes 
through Haiti. So, that intervention, if we are judging it by 
drugs, certainly was not a success.
    As you pointed out, they really have not had an effective 
government in Haiti for several years now. There are supposed 
to be local and parliamentary elections this year. I am not so 
sure they are going to come off.
    I think myself that Haiti presents us with another big 
problem, conceptual problem, and that is, what do we do about 
someone who is democratically elected, but is not a democrat? 
That is the way I would characterize President Aristide from 
his behavior after his election. It was our policy to restore 
him to power as if he were the answer to Haiti's problems. I 
think that proved not to be the case. And he may yet get freely 
and democratically elected next year in the Presidential 
elections in Haiti, and that I think may present us once again 
with this problem of what do we do--and here the we is the 
whole hemisphere, the whole inter-American system. When do we 
declare after a free election that the activities of the 
elected President now go beyond the bounds--this may be the 
case of President Fujimori as well--go beyond the bounds of any 
democratic or constitutional system and undermine that system 
to the extent that defenders of democracy in the hemisphere 
have got to speak out very forcefully?
    I am coming to the end of the short period of time I wanted 
to take.
    But I think the rule of law is critical because people vote 
maybe once a year, once every 2 years, once every 4 years, but 
they deal with the legal system much more regularly. And if the 
judges and the prosecutors and the whole system are corrupt, 
their faith in democracy will be completely undermined.
    The hard part is it is very resistant to help from the 
outside. I think it is a real conundrum. We know how to help in 
elections, but how can we help in the development of the 
systems of rule of law?
    Thank you.
    Senator Coverdell. Mr. Secretary, take another 5 minutes 
for yourself. I am going to do that across the board. Given 
this different configuration, I do not want to cutoff. Even at 
15 I know it cuts off the background you all represent, but go 
ahead and let us add another 5 minutes to this and the same for 
the others. Please proceed.
    Mr. Abrams. Thank you.
    I would just say another word about Haiti because I think 
this is one that is not really on the radar screen right now, 
but it will come back.
    I think we have probably paid too little attention--I think 
the U.S. Government has--to the question of drug trafficking 
through Haiti, and I think the reason is that we wanted to 
declare the intervention or the administration wanted to 
declare the intervention a success. It is hard to call it a 
success given the amount of drugs going through there and the 
fact that democracy was not really restored.
    We still have 500 troops in Haiti, but the head of the 
military mission there, Colonel Morris, and the CINCSOUTH, 
General Wilhelm, want them out on the grounds, among other 
things, that their safety cannot any longer be guaranteed 
because the public safety situation is deteriorating very fast 
there. So, I think Haiti is going to be coming back very 
quickly.
    General McCaffrey of the ONDCP called the situation there 
very grim, and I think that is quite right.
    I think others will be talking about Venezuela, so I will 
not talk very much about that except to say that I think if 
that is not on the radar screen, it is going to be very quickly 
because here again is a case of a free election. There is no 
doubt, none whatsoever, that President Chavez was elected in a 
landslide. The problem is at what point--and of course, we all 
hope he will not get there--would we all have to say that, 
well, he was elected, but then the activities he has undertaken 
lead us to say, ``this is not democracy.''
    As I have said, I think Peru already meets that definition. 
In its 1999 report, Human Rights Watch said--I will just read a 
sentence--``The anti-democratic tendencies of Peru's President 
Alberto Fujimori became more pronounced as he maneuvered to 
seek an unprecedented third term in office despite a 
constitutional limit of two terms. Fujimori's machinations to 
perpetuate himself in power continued to undermine the rule of 
law and independence of the judiciary. The entire National 
Magistrates Council resigned to protest laws restricting its 
powers.''
    Freedom House, as I mentioned, now calls the press in Peru 
not free, and in one case, the famous case of Baruch Ivcher, 
they actually took his citizenship away as well as taking his 
TV station away. I will actually myself be one of the lawyers 
representing Mr. Ivcher when that case goes to the Inter-
American Court of Human Rights in San Jose, Costa Rica later 
this year.
    So, I would say that I think we are handling the extreme 
cases pretty well. We are handling the gray areas not quite so 
well, and one of the reasons, of course, is that there are 
always crises and we want to handle the crises rather than 
turning to something that might eventuate into a crisis. But 
they will eventuate if we do not do more.
    On the bright side I would say, what can we do on the 
question of rule of law, what can we do in these cases? A new 
institution is being developed in the region that we are 
supporting but I think we should support more: the ombudsman 
institution. Broadly defined, as it is in Latin America, it is 
not just a matter of ``I did not get my pension check.'' These 
institutions are turning broadly into watch dogs over the 
executive branch. In Peru, for example, the Defensoria del 
Pueblo is a large institution that deals with questions of 
democracy and human rights, and what we would call a kind of 
comptroller general function about the administration of public 
moneys.
    These institutions I think can really help in many, many 
countries in providing a check on government power and a 
reassertion of the need for a rule of law that comes from 
within rather than coming from outside the country. So, I hope 
that in our foreign aid budget and institutions like the 
National Endowment for Democracy, we provide a good deal of 
support for these new and very promising institutions in Latin 
American democracy.
    Thank you. Thank you for the extra time.
    [The prepared statement of Mr. Abrams follows:]

               Prepared Statement of Hon. Elliott Abrams

    Mr. Chairman: It is a pleasure and an honor to testify here today 
about the condition of democracy in Latin America and the Caribbean. 
Given the importance of this topic, I want to begin by thanking you, 
Mr. Chairman, for your initiative in holding this hearing. Too often we 
react to crises rather than preventing crises when we may have the 
chance. Today, you are examining the basic conditions that will lead 
toward or away from stability in our region.
    There are two main points I wish to make today. First, I think we 
in this Hemisphere are better and better at responding to coups that 
actually change a government. We are not nearly as good at responding 
to slow-motion coups, to a slower but steady erosion of democracy, and 
we need to think about improving our response. Second, we need to focus 
more on one key ingredient to democracy, stability, and economic 
growth: the rule of law.
    What is the condition of democracy in this Hemisphere? I suppose we 
have to say, compared to what? Compared to past decades when the region 
was mired in military dictatorships, the situation is very good; and 
compared to many other regions of the world, things seem positively 
wonderful. The great wave of democratization of the 1980s has not been 
reversed, and the vast majority of people in this Hemisphere live under 
elected governments.
    We have the luxury, then, of focusing on the problems that 
democracy faces--and there are real problems, some of which require 
American policy-makers to rethink current strategies.
    In the Caribbean, the Castro dictatorship remains as repressive as 
it has ever been. The hoped-for opening after Pope John Paul's visit 
has not appeared, and instead the government has cracked down brutally 
on the first signs of opposition or dissident groups--the first sprouts 
in the creation of a civil society free of Party control.
    But Cuba is not the only problem in the Caribbean: Haiti is 
increasingly worrisome. The growth of drug trafficking through Haiti 
has concerned me throughout this decade but has been played down by US 
officials until very recently. Now it is acknowledged that an 
extraordinary 20 percent of all the cocaine arriving in the United 
States comes via Haiti, and the figure may well be much higher. Given 
that stopping drug trafficking was one of the justifications for 
sending 20,000 American troops to Haiti in 1994, billions of dollars 
later it is very hard to call that policy a success. The greater 
justification was to ``restore'' democracy to Haiti, but this has not 
been accomplished either. According to Col. Morris, head of the U.S. 
military mission there (now down to 500 troops), it is an increasingly 
violent and unstable place--and both he and the CINCSOUTH, Gen. 
Wilhelm, want the troops removed.
    Local and parliamentary elections are scheduled for this year, but 
may well not be held. Presidential elections are scheduled for next 
year, but even if these can be held there is little reason to believe 
they will solve Haiti's problems. The most likely winner in the 
presidential election is former president Aristide, whom our troops 
restored to office in 1994. It was Administration policy to act as if 
he personified progress and democracy in Haiti, but we seem to care 
more about those goals than he does. Today, corruption and incompetence 
in the security forces there have left Haiti an open field for 
traffickers, and there is no real way that democracy can grow in that 
situation. Gen. McCaffrey of the ONDCP calls the situation ``very 
grim'' and he is unfortunately all too right.
    Several other Latin countries have experienced challenges to 
democracy or are experiencing them now. You are familiar with the story 
in Paraguay, where President Cubas commuted the sedition sentence of 
Gen. Oviedo and ignored a Supreme Court ruling holding that move 
illegal. This story seems to have a happy ending where respect for law 
has been restored, Army rule--direct or indirect--avoided, and both 
Pres. Cubas and General Oviedo forced out of power. In fact, a 
Paraguayan judge just last week issued an extradition order for Gen. 
Oviedo for involvement in the March 23rd assassination of Vice 
President Argana.
    In Ecuador, the instability that followed the removal of President 
Bucaram has now apparently given way to regular democratic procedures 
once again. In Venezuela, I think we need to be watching carefully 
whether President Chavez, who was chosen fairly and with overwhelming 
public support in a free election, believes himself bound by the rules 
of the democratic game--or believes that he can discard any rules that 
are an inconvenience. His rhetoric is soothing one day and alarming the 
next. His reliance on military support and use of military men in 
civilian posts is disturbing. I hope, and I believe, that the United 
States is making it clear that our own relations with Venezuela will 
change radically should he attempt to move Venezuela away from 
democracy.
    A very worrying case today is that of Peru. As you know, Mr. 
Chairman, President Fujimori has never exhibited a great respect for 
democratic procedures, having invented the ``auto-golpe'' or ``auto-
coup'' when he decided that Congress was just too annoying to put up 
with. Peru's Constitution states very clearly that he is not entitled 
to a third term in office, but he seems determined not to allow that 
small detail to get in his way. He wants a third term, and is willing 
to undermine democracy in Peru to achieve it.
    Those who defend the Constitution and Peruvian democracy therefore 
face government attack. When Peru's Constitutional Tribunal ruled that 
he could not have a third term, he had the members who voted ``wrong'' 
removed. Human Rights Watch, in its 1999 report, states that:

          The anti-democratic tendencies of Peru's President Alberto 
        Fujimori became more pronounced as he maneuvered to seek an 
        unprecedented third term in office despite a constitutional 
        limit of two terms. Fujimori's machinations to perpetuate 
        himself in power continued to undermine the rule of law and 
        independence of the judiciary. The entire National Magistrates 
        Council resigned . . . to protest laws restricting its powers. 
        . . .

    As to freedom of the press, Freedom House now rates only two 
countries in our Hemisphere as having a press that is ``Not Free:'' 
Cuba and Peru. Peru was moved from ``Partly Free'' to ``Not Free'' this 
year. Freedom House stated that:

          The nation's newspaper and magazines felt increasing pressure 
        from President Fujimori. . . . Since 1992, many journalists 
        have been pressured into self-censorship. Others have been 
        intimidated by libel suits, detention, house arrest, and in one 
        famous case the revocation of a TV station owner's citizenship. 
        Last year, two journalists were killed, 12 received death 
        threats, 10 were beaten or otherwise attacked, and five were 
        arrested. . . .

    That TV station owner is Mr. Baruch Ivcher, whose case has been 
adopted by the Inter-American Human Rights Commission. The Commission 
is taking the case to the Inter-American Court of Human Rights in Costa 
Rica, where I will be one of the lawyers representing Mr. Ivcher. Mr 
Ivcher's ``crime'' was that his station revealed corruption and 
brutality at the highest levels of the Intelligence Service, and the 
Fujimori government wanted to put an end to that kind of investigative 
journalism.
    Most recently, Mr. Ivcher has revealed documents from 1996 through 
1998 showing that editors of Peru's most respected newspapers, owners 
of most of its TV stations, and their investigative reporters were 
subjected to a campaign of wiretapping, bugging, and intimidation by 
the National Intelligence Service in Peru. The situation in Peru is a 
sad and alarming one which has been documented--as have all these 
facts--in the Human Rights Report of the State Department.
    Peru, as well as Haiti, Paraguay, Ecuador, and if things go badly 
Venezuela, raise an important issue for all of us: what should the 
United States do and what should the Inter-American community do, when 
democracy is threatened? There have been some good examples. When 
President Fujimori pulled off his auto-coup and dissolved Congress, 
U.S. pressure was influential in pushing him back toward electoral 
democracy and a new election schedule. When President Serrano in 
Guatemala tried the same thing, U.S. and Latin pressure helped force 
him out and was critical in keeping Guatemala democratic. I think U.S. 
and Latin pressure was important in Ecuador, in assuring stability 
until last year's Congressional and presidential elections could be 
held and President Mahuad could enter office. There is no doubt that 
diplomatic pressure from Brazil and Argentina, Paraguay's partners in 
Mercosur, joined with American pressure to help keep that country in 
the democratic camp.
    But these are cases of sharp, obvious interference with democracy. 
What of insidious processes that subvert democracy more slowly--the 
``slow motion coups?'' Often the leader conducting this slow-motion 
coup was democratically elected--like Aristide in Haiti and Fujimori in 
Peru--but is no democrat. Having been elected once does not give any 
leader the right to erode the very free institutions by which he rode 
to power. When do we admit that a democratically elected leader may be 
no democrat? Here again Peru is a good example. In Argentina, when it 
became obvious that the people did not want the constitution changed to 
permit a third term for Pres. Menem, he was forced to abandon the 
project. In Peru, Pres. Fujimori has refused to permit a plebiscite, 
and is abusing his powers--including using the intelligence service 
against opponents--to assure that he gets a third term.
    Neither the Inter-American system nor the United States reacts 
cogently to this situation. There is little effective regional pressure 
on Haiti or on Peru today, for example. While the Inter-American human 
rights machinery is working well in handling particular cases, it 
cannot pick up the slack when it comes to systemic moves away from 
democracy. And the reaction from leading political figures in the 
Hemisphere is silence. It would have an enormous impact in these 
situations were Hemispheric leaders, such as presidents and ex-
presidents, to speak out. During the years when military dictatorships 
were common in the region, the generals had a code of silence whose 
purpose was obvious: since all were human rights violators and all were 
preventing democracy, it was evident that all benefitted from their 
common silence. But it should not be this way today. There are rays of 
light, including some statements by President Menem of Argentina, but 
there are not many. Nor are we doing all we should and speaking as 
loudly as we should. It would have an enormous impact were the United 
States to speak out more clearly.
    Within each society there are of course some brave voices. Just 
this week the Chamber of Commerce in Haiti issued a statement 
denouncing lawlessness and violence. Our members, the statement said, 
``wanted to fight together for a new Haiti based on democratic 
principles. But, what deception! The business community and civil 
society, day after day, year after year, since 1986, have reaped 
nothing but deception, bankruptcy, necklacing, embargo, and, today, 
anarchy.'' In Peru, The ombudsman's office, called the ``Defensoria del 
Pueblo,'' was established in 1996 and has proved to be a clear voice 
for democracy and the rights of the people. Similar institutions exist 
in several Latin countries and are on the drawing board in others, and 
these are very valuable and promising initiatives. These institutions 
can provide an independent voice for democracy and the rule of law in 
situations where it is difficult to speak out. The United States should 
be giving them our full support, for there will be an enormous 
temptation for governments to try to shut them up and maintain a 
monopoly on power and information.
    My second point this afternoon relates to the rule of law. The 
first step for Latin countries returning to democracy from military 
dictatorship was to hold free elections, and free elections now 
characterize the region. A free press was also critical for the 
transition, and in most of the region the press is free or partly free; 
as I noted, Freedom House says that only in Cuba and Peru is the press 
not free. But what is also vitally important for the development of a 
democratic government and a democratic society is the rule of law, and 
here progress has generally been far slower. There are some shining 
exceptions, such as Chile and Uruguay, but they are exceptions. Latin 
America is more often characterized by judicial systems that do not 
work and by widespread corruption. Of course, the two go hand in hand: 
if judges or prosecutors are corrupt, if justice can be bought, there 
is no real rule of law. This affects both civil and political rights 
and economic development, for the security of property rights is an 
absolutely essential building block of the kind of democratic 
capitalism we all hope will expand in Latin America. And solving these 
problems is made far more difficult when drug trafficking injects vast 
sums of money and corruption into systems that are frail to begin with.
    For most citizens, who may (or may not) vote in elections every 
couple of years, interaction with police officers or with judges, in 
civil and criminal cases, will be their most frequent interaction with 
their government. If they experience corruption, their belief in 
democracy will be badly undermined. They will see their own country's 
return to democracy as a sham, a facade behind which the rich and the 
powerful still run things for their own benefit. The rule of law is an 
essential part of democratic order, as critical as free elections.
    What can be done? The international community, including the OAS, 
is very good nowadays at helping a country plan and hold and safeguard 
free elections; and a free press will spring up by itself if left 
unsuppressed. Moreover, there is widespread attention when freedom of 
the press is violated or when elections are compromised. But building 
the rule of law is far more difficult and takes far longer, and 
violations are often hidden from view. As I look back to our human 
rights policy in the 1980s, it seems to me we were correctly optimistic 
about the spread of free elections and freedom of speech and press, but 
too optimistic about the rule of law. Institutions must grow more 
slowly here, for it takes longer to train a new cadre of judges and 
prosecutors, and to establish mechanisms to guarantee their honesty.
    It is also more difficult for outsiders to help solve this problem, 
for it requires more time and affects more officials and social 
institutions that are far more complex. It is perhaps too much to say 
that foreigners can do nothing to help, but often we cannot do very 
much. What we can do, and must do, is to cheer when there is progress 
and protest loudly when there are deliberate efforts to corrupt the 
judiciary and debase the rule of law. Here again our support for 
ombudsman offices, such as the Defensoria del Pueblo in Peru, can be 
critically important, helping defend them against efforts to undercut 
their influence or budget and shut them down. And when appropriate, as 
with a number of Caribbean countries, we can lend a helping hand to 
weak police forces in dealing with the worst enemy of law in many 
Caribbean and Latin countries, the corruption that stems from the 
narcotics industry.
    The progress made during the last 15 to 20 years should encourage 
us to maintain and indeed enhance our commitment to democracy in this 
Hemisphere. However difficult it may seem, the task is less daunting 
than the one we faced back then. But wherever those who would undercut 
democracy are active--from the communist dictatorship in Cuba, to the 
power grab of Fujimori in Peru, to the corruption spread by drug 
traffickers--American words and action are critical. Sometimes we, 
together with others in the region, can make an enormous difference. We 
have an obligation to try, for the democratic principles at stake are 
our own basic principles and this is, after all, the region in which we 
live.

    Senator Coverdell. Thank you, Mr. Secretary. I appreciate 
it very much.
    We will turn to the Ambassador for your presentation.

  STATEMENT OF HON. LUIGI R. EINAUDI, VISITING SENIOR FELLOW, 
    INTER-AMERICAN DIALOGUE, FORMER U.S. AMBASSADOR TO THE 
        ORGANIZATION OF AMERICAN STATES, WASHINGTON, DC

    Ambassador Einaudi. Thank you very much, Mr. Chairman. Let 
me join Secretary Abrams in thanking you for this opportunity 
to present our concerns to you.
    I would also like to reciprocate Elliott's nice words about 
me by saying that since I did work directly with him when he 
was Assistant Secretary, I can testify that his concern for 
democracy and for human rights is nothing new, but has in fact 
infused all of his work.
    I share your views and those that Elliott Abrams has set 
forth in terms of the news being basically good. I think that 
since we are going to be talking about difficulties, it is 
incumbent upon us not to do so in a way that adds to the easy 
cultural stereotypes with which Latin America is often 
associated, with bad news, with dictatorship, with earthquakes, 
with breakdowns, with abuses.
    I think that I also agree with what you said at the 
beginning that Americans can be proud of having contributed, 
but that our job is not yet finished. In my prepared statement, 
I give a number of what I see as danger signs. I am not going 
to go over them specifically here for reasons of time, but I 
will say one thing about them.
    First, I had a hard time giving them a clean intellectual 
shake because I saw political danger signs, I saw economic 
problems of fulfillment of obligations, I saw social tensions, 
and I saw problems of criminality and the challenged government 
authority and ability to maintain the rule of law.
    I also listed things that affect virtually every country in 
the hemisphere. I will admit that I did not hold my hand. I 
even mentioned the United States in the sense that I think that 
it is important that we realize that when the largest country 
in this hemisphere, largest not only in the accident of 
geographic size, but also in terms of wealth and power, directs 
its attentions outside the hemisphere, does not follow through 
on commitments for freer trade that would strengthen regional 
integration, and manages to convey a sense of indifference to 
what happens in the hemisphere, that that inevitably adds to 
the ominous signs that things may not be going as well in the 
hemisphere as we would like them to go.
    Now, let me develop my remarks around three basic points.
    First, since the basic good news is that we have not had 
the classic kind of military coup in which officers rebel 
against the authority of persons that they are sworn to uphold 
in office--we have not had that for 20 years or more in the 
hemisphere--that the issue at this point is to focus not on the 
rhetorical desirability of democracy as opposed to 
dictatorship, but really on the components and functioning of 
democracy.
    Second, on the importance of security to democracy--and I 
think this is a point which is sometimes amiss, but that is 
nonetheless fundamental--democracy requires a certain element 
of citizen and national security in order to function well.
    And then finally, some thoughts on regional arrangements 
and cooperation, how to respond to the situation.
    With regard to the key components of democracy, let me 
stress I think that one cannot predict sort of straight line 
improvements in life or continuation of democracy, but I think 
at this point that we have succeeded in stopping the pendulum 
between democracy and dictatorship. We are in the general 
democratic camp in the western hemisphere, and I believe that 
basically we are going to stay there, so that our concern from 
a policy standpoint should not be on the desirability of 
democracy and more on the quality of democracy.
    When we talk about the quality of democracy, the components 
that I think are important are free elections. I share Elliott 
Abrams' view that we, and more importantly the Latin Americans, 
have gotten rather good at that and that they do have problems, 
but that basically they can handle elections reasonably well.
    To pass to other key concepts, separation of powers and 
public freedoms, which I think is the concern that underlies 
Mr. Abrams' worries about Peru, and the general question of an 
impartial administration of justice, which is accessible to all 
citizens.
    Now, in the statement, I go over a number of these points. 
I am not going to go into them in great detail, but I do want 
to underscore the fact that we have to worry about gray area 
cases and about those cases that are not like the classic 
interruptions of the political process, but rather lead to its 
gradual erosion or change without consideration or respect for 
basic constitutional procedures.
    And the case I would throw into the hopper on this as a 
sort of warning flag would be Venezuela. The institutional 
order in Venezuela today remains intact, but it seems to me 
that there are clear signs that there are political tensions 
there that could jeopardize the survival of a democratic system 
and that the confrontations that have taken place between the 
elected President and the equally elected Congress and 
constitutional supreme court make clear that the constituent 
assembly, which is going to be working this summer, is going to 
have its work cut out for it to prevent justified reactions 
against corruption, against the disregard of popular needs to 
become the basis for a denial of democratic rights.
    On the question of security, let me simply say at this 
point that while these democratic years, which have also, by 
the way, seen--and I was the U.S. envoy in the settling of the 
Peru-Ecuador conflict--that have really seen the States of 
South America in particular, Argentina and Brazil on the 
nuclear front, massive acceptance by military leaders and 
institutions of non-political roles, of budget constraints, of 
the need for confidence-building measures. So, we have seen 
major good news on, let us call it, the field of interstate 
tensions, that we have seen really major new danger signs in 
the area of security forces that must now face organized local 
and international criminal gangs that, because of the returns 
of their criminal activity and not just drug trafficking--think 
of the gangs that are stealing cars in southern California and 
revamping them in Latin America. We are talking about billions 
of dollars worth of activity here. These gangs in some cases 
can have intelligence, communications, planes, weaponry that 
can challenge the forces of government and, in turn, lead to 
extra-legal forms and ways of society to organize themselves in 
defense, including the rights of private security forces and 
paramilitaries.
    So, it seems to me that if we talk about the survivability 
of democracy and the rule of law in the hemisphere, it is 
important that we not duck the security issue. It seems to me 
clear--I am not going to go into great length now in this oral 
statement, but that you need to face up to civilian control, to 
operations by security forces under civil law and a fully 
transparent code. I think we need to separate the professional 
military and police forces, ensure civilian led police forces. 
And I think we have to be very careful about military and 
counter drug operations to have them take a supportive but 
probably not a lead role.
    The case that perhaps raises many of these issues most 
clearly for me is that of Colombia. You yourself, sir, 
mentioned in your opening statement some of the abysmal 
figures. It seems to me that the only long-term solution in 
Colombia is the gradual development of a more inclusive 
society. These guerrilla problems exist a long time, and they 
go before the narcotics thing became major. And you need a more 
inclusive society, one that is better able to deal with some of 
these issues and also that has a more effective State 
authority.
    It is inconceivable to me that democracy can be 
consolidated in Colombia without a military that is capable of 
supporting that civilian government in its effort to assert 
lawful authority against all-comers, whether it be the drug 
dealers, the insurgents, or the paramilitary.
    Finally, on regional cooperation or responses to this, let 
me say that I think that General Assembly resolution 1080 of 
the OAS has proved quite effective in dealing with the sudden 
interruptions of democratic and institutional process. I think 
that in the new grayer areas, there is a great deal to be done. 
I think that it is important that we as Americans be aware. I 
think Elliott Abrams did mention that it is a complicated thing 
to try to act in these situations. I think it is very aware 
that our power imposes special obligations of restraint, that 
it is not our business to try to impose unilateral or even 
multilateral standards on sovereign states.
    I think, therefore, that we must accept the burden of 
attempting to engage in proactive activities. We should focus 
discussion in advance, as you have helped us to do and as I 
have tried to take advantage of it, on the elements of 
democracy and that we should try to, in that way, contribute to 
an overall improvement in the situation.
    I note that on the security point, I think we should 
negotiate or support negotiated development of a new regional 
security architecture. I will not go into that.
    Let me end simply by saying this. The complexity of the 
issues arising before us are such and the number of issues they 
cover that it seems to me that the United States should think 
in terms of the development of a new hemispheric bargain, one 
in which, in effect, we would seek to meld cooperation against 
drugs and crime and corruption in an explicit framework of 
support for democracy, free trade, and the rule of law.
    Thank you, sir.
    [The prepared statement of Ambassador Einaudi follows:]

              Prepared Statement of Hon. Luigi R. Einaudi

    Thank you, Mr. Chairman, for giving me this opportunity to present 
my concerns at the accumulating stresses against democracy and the rule 
of law in this hemisphere.
    The story of Latin America has been marked by a history of 
alternation between democracy and dictatorship. In the early 1930s, 
again in the late 1940s, and most recently in the 1960s, successions of 
military coups established juntas and de facto governments in a 
majority of the countries of Spanish America and in Brazil. In recent 
years, this swing of the pendulum from democracy to dictatorship 
appears to have stopped. The return to civilian governance that began 
in the 1970s has continued now for more than 20 years without a single 
classic military coup. It has become commonplace to talk of the 
Americas as a hemisphere that, with the single exception of Cuba under 
Fidel Castro, is entirely democratic.
    This hemisphere-wide trend toward strengthening democracy and the 
rule of law is both powerful and welcome. Our national interests are 
vitally served by the prosperity and security of our neighbors. I 
believe Americans should be proud that the United States, under a 
succession of administrations headed by leaders from both parties, has 
sought to support the long-term development and stability that can only 
be nurtured by democracy and the rule of law.
    Allow me, however to call to your attention several troubling 
recent events:

  <bullet> Last March, Paraguay's Vice President was assassinated under 
        conditions that led to the impeachment and resignation of 
        Paraguay's President. The outcome was ultimately handled in 
        accordance with the constitution, but the whole process was as 
        unsettling as it was unscheduled.
  <bullet> Earlier this year in Brazil, South America's largest 
        democracy, a state governor almost provoked an international 
        financial crisis by refusing to pay debts his state owed to the 
        federal government.
  <bullet> In Venezuela, which is the largest foreign supplier of oil 
        to the United States, accusations of corruption amid widespread 
        poverty have given a succession of major electoral triumphs to 
        a dynamic former military coup leader and raised fears that key 
        democratic principles will be at risk in the months ahead.
  <bullet> In Colombia, the government must fight illegal drug mafias 
        in the midst of guerrilla and paramilitary violence that is 
        deep-rooted and spreading despite a long democratic tradition, 
        a revamped constitution and reinvigorated peace efforts.
  <bullet> In February 1997, the then-President of Ecuador was 
        impeached almost without warning by a Congress using a unique 
        constitutional interpretation. Today, despite peace with Peru 
        and a new constitution, partisan and regional differences have 
        if anything increased.
  <bullet> Meanwhile, in Peru, challenges to the separation of powers 
        and to individual freedoms have continued despite international 
        acceptance of a constitution written after the previous charter 
        had been illegally abrogated.
  <bullet> Chile has one of the hemisphere's most highly developed 
        legal systems, but its domestic legal procedures are being 
        questioned by assertions of international jurisdiction on 
        charges against former President Augusto Pinochet.
  <bullet> The English-speaking Caribbean remains steadfastly 
        democratic, but sheer lack of size makes its countries highly 
        vulnerable to the dislocations of globalization, whether caused 
        by NAFTA or our opposition to European banana quotas. The 
        entire Caribbean Basin, including Central America, which is 
        still rebuilding from the wars of the 1980s, has been hit hard 
        by plagues from drug traffickers to hurricanes that hamper good 
        governance and stimulate emigration to the United States.
  <bullet> In much of the hemisphere, local security forces face local 
        and international criminal organizations that take advantage 
        equally well of remote areas with limited government control 
        and new urban sprawls that concentrate underemployed and 
        undereducated populations.
  <bullet> While our neighbors struggle with these new uncertainties, 
        the hemisphere's oldest independent democracy and most 
        prosperous country, the United States, has its attention 
        focused on problems outside the hemisphere. We have not 
        sustained initiatives toward freer trade that would have 
        strengthened regional integration. And despite sporadic efforts 
        by some to prove otherwise, our neighbors are getting the 
        impression that we are generally indifferent to what happens to 
        them.

    These events and patterns are very disparate and not easy to 
categorize. Taken individually they seem mostly the normal stuff of 
politics in a global era. They are not the blatant attacks on democracy 
and the rule of law characteristic of Latin America's past. They are 
not the product of the arbitrary rule of a single strongman or caudillo 
as is still the case in Cuba. They are not the politics of despair that 
still dominate Haiti. And they include no prototypical coups against 
elected civilian authorities by military officers sworn to uphold 
them--such as the 1968 coup in Peru that led to my first appearance 
before this Committee thirty years ago last month.
    We should be thankful this is the case. As a senior State 
Department official reminded us recently, ``despite the turmoil, 
constitutional processes in these countries have not been scrapped; 
political differences have not generated bloodshed even when there were 
thousands marching in the streets; the militaries have not stepped in 
as alleged saviors of their country from chaos; the leaders and 
citizens of these countries have not pushed aside democracy and the 
rule of law'' (Acting Assistant Secretay of State Peter F. Romero in 
Tokyo, April 9, 1999, emphasis in original).
    But though these and similar events have not created the stark 
choices characteristic of the past, I believe that over time they pose 
important dangers to freedom in the hemisphere. The threats they pose 
are different from our traditional fears of military coups and rampant 
instability. When the threats change, our defenses must also adapt. But 
because the threats are new, we and others have not yet had time to 
develop agreed responses.
    So today I would like to develop my remarks around three broad 
themes:

  <bullet> first, the need to strengthen the key qualitative components 
        of democracy;
  <bullet> second, the importance of security to democracy and the rule 
        of law; and
  <bullet> finally, possible responses to the new threats, with 
        particular attention to regional arrangements and cooperation.
                     i. key components of democracy
    The end of traditional dictatorships in Spanish America and of 
colonialism in the Caribbean has been accompanied by elections that are 
increasingly competitive. But the end of dictatorship has not ended 
poverty, inequities or human rights abuses, leading some to question 
the effectiveness of democracy. Arguments have been heard that petty 
crime, drug trafficking, and corruption thrive in democratic 
environments and should be met with a good dose of authority and force. 
With the passage of time, the failures and abuses of the democratic 
present can become more vivid than the dimming memories of even greater 
failures and abuses of the dictatorial past.
    I should make clear that I do not expect a generalized return to 
dictatorship in Latin America or the Caribbean. Our neighbors are too 
developed, too complicated, and too smart to fall into the mess of 
domestic instability and lost international opportunities that would 
inevitably result. I recognize that history is not the inevitable march 
of progress and that setbacks, even major and lengthy diversions from 
the path of democracy are possible and even likely. But I do think that 
Latin America has progressed beyond traditional stereotypes to a point 
at which the focus of policy concern and public debate should shift 
from generic support for the desirability of democracy as opposed to 
dictatorship to a focus on the quality of how democracy is practiced.
    There is, of course, no single model of democracy. In this 
hemisphere the British parliamentary model has long coexisted with a 
wide variety of presidential systems. But there are elements that are 
common to all democracies, and in whose absence claims to democratic 
practice would be flawed. These include at a minimum free elections, 
the separation of powers, public freedoms, and an impartial 
administration of justice accessible to all citizens.
    Consider elections. For elections to qualify as democratic, they 
must be open to all voters and their ballots tallied correctly; they 
must offer competing candidates who can express their views freely; and 
they must be held at predictable regular intervals.
    I understand that most electoral experts believe Latin American and 
Caribbean elections now meet these key standards increasingly well, 
despite serious questions that have come up in some cases about the 
right to stand for election or reelection, whether or not voting should 
be compulsory, about whether political parties should enjoy public 
support, or the extent of voter turnout.
    In several countries, but particularly Argentina and Peru, 
controversies over presidential reelection have bedeviled national 
politics. However, as long as they are dealt with constitutionally, 
such issues should be approached respectfully, if at all, by 
foreigners.
    The content of constitutions and what happens between elections are 
matters that deserve greater attention than is normally given to them. 
Hemispheric practice is to consider that the principle of 
nonintervention in the internal affairs of other states--since the mid-
l930s the cornerstone of the Inter-American System--requires acceptance 
of the constitutional provisions in force in each independent state. 
Just like elections, constitutions can vary but have characteristics 
that determine their democratic quality. In general these turn on 
accountability, the impartial administration ofjustice, the separation 
of powers among the executive, legislative and judicial branches, 
guarantees of public freedoms, including freedom of the press, and 
provisions for efficient state institutions free of corruption.
    The biggest regional political crises of the past decade involved 
interruptions of the constitutional process. The first took place in 
Haiti in 1991, where the constitutional congress and the military moved 
against the constitutionally elected president. The second took place 
in Peru, where the constitutionally elected president and the military 
moved against the congress and the constitution, including the courts. 
A third, in Guatemala, saw the elected President appeal to the 
military, unsuccessfully as it turned out, to close the elected 
congress.
    These events were not classic military coups, but they struck 
against the separation of powers and the rule of law, I will deal with 
the regional response shortly. Here I merely want to note that because 
they entailed a sudden and major interruption of established legal 
processes, they proved unsuccessful partly because their patent 
abusiveness automatically rallied opposition against them.
    But there are a number of situations that are considerably less 
clear. Some would argue that despite a new constitution and an elected 
congress, Peru still poses important questions regarding the 
independence of the judiciary and the freedom of the press.
    Venezuela is another interesting current case. Venezuela's 
institutional order remains intact. But it is also clear that political 
tensions have emerged that could jeopardize the survival of a 
democratic system. At what point does a legitimate reaction against 
corruption and the disregard of popular needs become an undemocratic 
denial of the rights of others? Confrontations between the President 
Chavez and the Congress and especially the Supreme Court make clear 
that the new Constituent Assembly that is to convene this summer will 
have its work cut out for it.
                     ii. the importance of security
    Military institutions normally get a bum rap in most discussions of 
democracy. Their past associations with dictatorship, their role as 
specialists in the use of force, their organizational strength and 
sometimes privilege have often produced unbridgeable gulfs between 
military and civilian elites.
    From the standpoint of relations among states, recent news has been 
uniformly positive. Military support for peace in Ecuador and Peru 
confirms the new era begun by Argentina and Brazil's abandonment of 
their nuclear programs and the Southern Cone's foreswearing of weapons 
of mass destruction. Military leaders have expanded confidence building 
measures and accepted budgetary constraints, but as yet no generalized 
arms restraint regime has emerged. The OAS did, however, help transform 
a Mexican-Rio Group initiative into a hemisphere-wide convention 
against the illegal trafficking of small arms that has received the 
support of the United States.
    There has also been some good news on the sensitive internal 
fronts. With the end of the cold war, the decline in guerrilla 
insurgencies, and most of all the end of military coups, the gulf 
between military and civilian groups is beginning to erode. Military 
matters are no longer the taboo for civilians they once were.
    As I noted earlier, however, in much of the hemisphere, weakened 
military and often ineffective police institutions now face criminal 
organizations that take advantage equally well of remote areas with 
limited government control and of new urban sprawls. Car thefts from 
the United States are less discussed than the narcotics traffic, but 
are also a business involving billions of dollars. Globalization of 
drugs and crime has helped spawn gangs that sometimes have better 
intelligence, communications, planes and weapons than the forces of 
governments. One sign of the intensity of these problems is the rise of 
private security forces and paramilitaries.
    I suggest there are four keys to the role of the military and 
security forces in a democracy: civilian control; operations under the 
civil law and a fully transparent military code (no impunity); a 
separate professional and civilian-led police force, and a supportive 
but not lead role in counter-drug operations.
    These issues are all present today in Colombia. Colombia presents a 
very complex over-all situation for which the only long-term solution 
is the gradual development of a more inclusive society with effective 
state authority. This formula requires a professional military, 
professional in that it has the ability to use force effectively but 
does not do so needlessly because it obeys the law and is respectful of 
human rights. The drug dealers and to some extent the guerrillas have 
access to very major resources from the traffic in illegal narcotics. A 
modern state and a democratic society in Colombia require a military 
that can support a civilian government in its efforts to assert lawful 
authority against all comers, be they drug dealers, insurgents or 
paramilitary forces.
 iii. regional cooperation in support of democracy and the rule of law
    Representative democracy, human rights, and to a lesser but 
important extent social and economic rights and freedoms are already 
accepted as legitimate regional obligations, codified in the OAS 
Charter and in international law.
    In the crises in Haiti and Peru mentioned above, the hemispheric 
community reacted by invoking OAS General Assembly Resolution 1080, 
which calls for an immediate response by the governments of the 
hemisphere ``in the event of any occurrences giving rise to the sudden 
or irregular interruption of the democratic institutional process or of 
the legitimate exercise of power by the democratically elected 
government in any of the Organization's member states.''
    In Haiti, the interruption lasted until the legitimate president 
was restored to office three years later by international military 
action under the auspices of the United Nations. In Peru, the 
interruption lasted until a new Congress was elected and wrote a new 
constitution. Resolution 1080 was also applied to subsequent crises in 
Guatemala and Paraguay, which also saw the emergence of subregional 
communities as important guarantors of democratic continuity.
    The emergence of new and generally subtler challenges to democracy 
poses special problems. The hemispheric community has a stake in the 
outcome, but how it acts or reacts may be less a matter of the member 
states deciding what to do in particular cases once a crisis has broken 
out than of systematically supporting and sustaining democracy and the 
rule of law.
    The key is to find a balance between extremes. One extreme would be 
to turn a helpless eye to even the most grotesque violations of 
democratic practice. The other extreme would be to attempt to impose 
unilateral or even multilateral outside standards on an offending 
country. I believe a balance must be sought by focussing public 
attention on key components of democratic constitutionalism as 
discussed above, and by employing proactive observation and private 
consultations to address specific cases. If an interruption of 
legitimate democratic processes takes place despite these proactive 
measures, there would be no choice but to apply Resolution 1080.
    The time is also ripe to expand US support for the Action Program 
of the 1998 Santiago summit meeting. Particularly as concerns 
education, security, narcotics trafficking, and integrated cooperation 
on the administration of justice, we should make an effort to ensure 
major progress in time for the next Summit of the Americas in Canada.
    For the United States, which is completing this year the withdrawal 
of its military forces from Panama, I would recommend that we support 
the negotiated development of a new regional security architecture. The 
Inter-American Defense Board and College should be brought explicitly 
under civilian control, and any new cooperative security arrangement 
should also include the Center for Hemispheric Defense Studies and the 
School of the Americas.
                             iv. conclusion
    This statement has been overwhelmingly about democracy within 
countries. It is important that we also take into account the 
importance of democracy among countries and among groups of countries.
    The potential of the Americas has been held back by lack of mutual 
trust and sometimes even respect. Cultural differences and 
fragmentation have blocked action as Latin Americans have emphasized 
the state and sovereignty as counterweights to the power of the United 
States, and as we have tended to assume problems could only be solved 
if approached our way.
    Democracy and free trade have now created the foundations for a new 
hemispheric bargain. The basis of the bargain should be cooperation in 
the fight against drugs, crime, and corruption set in a framework of 
democracy and free trade. The emphasis should be on cooperation not 
aid, cooperation not sanctions, and perhaps even cooperation not trade, 
if that proved necessary to reduce the vulnerabilities of small states.
    Freedom is a great balance wheel. So long as people are free to 
express themselves and organize peacefully, they will have the 
opportunity to correct abuses and devise new methods of cooperation. I 
believe that United States and its neighbors have great advantages to 
reap through a new hemispheric bargain anchored in freedom.

    Senator Coverdell. Thank you, Ambassador. I appreciate very 
much your remarks. Both of you have written remarks that exceed 
what you mentioned, and I hope you would submit them, to the 
extent that you can, for our record which we would more than 
like to receive.
    Ambassador Einaudi. We will both do so.
    Senator Coverdell. Thank you.
    Mr. Sweeney, let me turn to you now.

 STATEMENT OF JOHN P. SWEENEY, LATIN AMERICAN POLICY ANALYST, 
            THE HERITAGE FOUNDATION, WASHINGTON, DC

    Mr. Sweeney. Thank you, Senator Coverdell. Thank you for 
the invitation to appear before this hearing today, and it is 
nice to be here with my friend Elliott and share a table with 
Luigi.
    In the interest of brevity, I am going to jump over most of 
my initial presentation because it would just cover ground that 
Elliott and Luigi have already covered. I am going to turn to 
the specific question of Colombia and Venezuela, which in my 
opinion are probably the two biggest challenges the United 
States faces today in the Western Hemisphere. I start this on 
page 4 of my presentation.
    On March 25, 1999, we published at the Heritage Foundation 
a policy paper entitled ``Tread Cautiously in Colombia's Civil 
War.'' I have included that paper as an appendix to this 
testimony today to be included in the record.
    Briefly though, Colombia, the world's largest producer of 
coca leaf and cocaine, is today in danger of breaking up as a 
nation. After 34 years of war against the Colombian State, the 
Communist insurgents that belong to the Revolutionary Armed 
Forces of Colombia, the FARC, and the National Liberation Army, 
the ELN, have gained the upper hand politically and 
increasingly, it appears, in military terms as well.
    Since the last 1980's, the FARC and ELN insurgencies have 
financed their growth and activities by engaging in the illegal 
drug trade and by kidnapping. Today they control over half of 
Colombia's national territory, including a demilitarized area 
in southern Colombia of 16,216 square miles, nearly twice the 
size of El Salvador, that President Andres Pastrana gave to 
them on November 7, 1998. Moreover, since early 1997, the 
rebels have inflicted a series of stunning defeats on the 
Colombian army in open maneuver combat.
    President Andres Pastrana is suing for peace at all costs. 
The Colombian Government has flatly ruled out any option other 
than a negotiated settlement, even though the guerrillas have 
maintained their attacks against Colombian army and police 
forces and refuse to lay down their arms and have openly called 
for the creation of a socialist/marxist State in the regions of 
Colombia they control. Moreover, the Colombian guerrillas have 
continued to kidnap foreigners, including three American 
citizens who were snatched in Colombia and subsequently 
murdered in cold blood in Venezuelan territory.
    Let me add too that I think that eventually we are going to 
learn that the missing American missionaries for the past 
several years are also dead. I think that sooner or later will 
be confirmed, if not by the FARC, by the Colombian Government.
    Now, President Pastrana stance of pursuing peace at all 
costs in my opinion is symptomatic of a profound lack of will 
by the Colombian Government and by Colombia's political and 
business elites to confront the narco-rebels and defeat them in 
battle. Instead of strengthening the Colombian armed forces, 
the Pastrana Government appears to hope that is the peace 
process fails completely, the U.S. will come into the breach to 
bail out Colombia. What makes this lack of Colombian will 
particularly alarming is the Clinton administration's confusion 
about what needs to be done in Colombia to terminate the 
Communist insurgency and contain the illegal drug trade that 
today accounts for as much as 5 to 7 percent of Colombia's 
annual gross domestic product. Congress must guard against any 
efforts by the Clinton administration to send U.S. soldiers to 
Colombia, and Congress must also guard against any efforts by 
the politically weak Pastrana Government to dump responsibility 
for ending Colombia's civil war on the shoulders of American 
soldiers and taxpayers.
    Turning briefly to Venezuela, which is suffering perhaps 
its worst economic crisis in this century, President Hugo 
Chavez Frias is seeking to centralize all power in his hands 
with the backing of some, but not all, elements of the 
Venezuelan military. A new banking crisis is looming like the 
one that 5 years ago cost Venezuela 14 percent of its gross 
domestic product in 1994. Moreover, the non-oil economy is 
completely paralyzed while investors and producers wait for the 
final outcome early next year of the constituent assembly that 
Chavez is vigorously pursuing. However, this constituent 
assembly will not resolve Venezuela's economic crisis. When the 
poor Venezuelans who elected Chavez realize that the 
constituent assembly will not create jobs, ease their hunger, 
or improve their wretched living standards, they may turn 
against him with the same ferocity they showed toward former 
President Carlos Andres Perez in February 1989 when the country 
was rocked by bloody riots that lasted a week and caused over 
300 violent civilian deaths.
    It is too early yet to write off the Chavez Government in 
Venezuela as a failure, but it is appropriate I think to 
include some general remarks based on his first 3 months in 
office.
    First, President Chavez has an apocalyptic salvation 
project that may further destabilized Venezuela in the next 6 
to 12 months. His vision is populist, socialist, statist, and 
militaristic. Moreover, his rhetoric indicates that the kinds 
of constitutional reforms that Chavez has in mind would involve 
more government ownership, control, and regulation of all 
economic activity, and fewer political freedoms for his 
opponents. He speaks significantly of participative democracy 
instead of representative democracy. If you look at the Cuban 
constitution under Castro, it is participative. In other words, 
if you are with me, you are participating; if you are against 
me, you are out of it. And that I fear is one of the things 
that is happening now in Venezuela.
    Second, Chavez says he supports democracy and free markets, 
but his actions show otherwise. Currently more than 300 active 
duty military officers are in civilian government posts. Some 
of these posts occupied by these active duty military officials 
involve general staff of the Colombian armed forces reporting 
to officials who formerly were their subordinates. So, tensions 
have been created within the structure of the armed forces of 
Venezuela.
    Second, since he became President last February, more than 
2,000 former military personnel have been appointed to local, 
regional, and national security jobs throughout Venezuela. 
Chavez also has called repeatedly for the dissolution of both 
the Venezuelan Congress and Supreme Court, and he also supports 
eliminating free elections for State Governors.
    Third, since assuming the Presidency barely 3 months ago, 
Chavez has demonstrated a growing bias against the United 
States. For example, he personally lobbied against the U.S. in 
the recent U.N. vote in Geneva on Cuba's human rights 
violations. Moreover, his Foreign Minister, Jose Vicente 
Rangel, has openly disparaged the U.S. Ambassador in Venezuela 
for the Ambassador's carrying out his job, and has stated that 
Venezuela henceforth will vote in the U.N. with countries the 
likes of Cuba, the People's Republic of China, Iraq, and Libya. 
Chavez has also cozied up to Cuban dictator Fidel Castro, and 
he has interfered in the Colombian civil war with a decided 
preference toward the Communist narco-guerrillas of that 
country.
    Fourth, President Chavez does not have a viable economic 
plan to pull Venezuela out of its present crisis. He has little 
interest in economic matters, except as they may affect his 
constitutional reform project. Moreover, he does not have a 
coherent economic team and his cabinet is not composed of 
first-rate individuals qualified professionally for the post 
they now hold.
    Mr. Chavez also has created impossibly high expectations 
among the Venezuelan people that he cannot meet. It is not 
clear yet how the Venezuelan people will react when they 
finally realize that writing a new constitution will not 
improve their socioeconomic standard of living. While the 
constituent assembly process unfolds over the next 6 to 12 
months, the public's support for Chavez may hold up, especially 
if he launches very public efforts to detain and imprison 
anyone perceived as being corrupt. Some of this has already 
begun to happen.
    During a recent visit to Venezuela, the son of a leading 
Accion Democratica official was arrested based on an anonymous 
telephone call held in communicado, and even when the Foreign 
Minister and the Interior Minister both went to the office of 
the State security police director to request this young man's 
release, he laughed in their face. They had to go straight to 
Chavez to get Chavez to get this kid set free. So, we are 
seeing the whole notion of due process being trashed completely 
by the Chavez Government.
    When the constituent assembly process finally ends with a 
new constitution, the Venezuelan people will realize that 
populism is no substitute for sound free market policies, and 
at that point it is possible that we will see outbreaks of 
violence in Caracas and other major Venezuelan cities.
    The last point on Venezuela. Chavez does enjoy widespread 
support within the Venezuelan armed forces, but that support is 
not unanimous. There are even dissident groups within his own 
MBR 200 movement, including the Governor of Zulia, Mr. Ideas 
Cardenas, who is considered the intellectual father of Chavez' 
political movement. Ideas Cardenas has already broken publicly 
with Chavez and said that he would oppose any effort to toss 
out the country's institutions, as Chavez appears to be seeking 
to do with his constituent assembly.
    Moreover, the Venezuelan National Guard, which succeeded in 
blocking two failed military coups in 1992, the first one being 
led by Chavez, does not back the new President. He does not 
have their support. Therefore, any attempt by Chavez to launch 
a Fujimori style self-coup somewhere down the road would 
undoubtedly result in street battles between armed forces and 
National Guard units.
    Finally, touching on what Elliott has said today and what 
Ambassador Einaudi has said today, there is probably very 
little that the U.S. could have done in the last couple of 
years to prevent any of these threats to democracy from 
erupting across the region. But the United States Government's 
extended disengagement from Latin America since 1994 has 
complicated the region's problems by projecting the mistaken 
message that Latin America is not an area of great importance 
to the United States. At a time when a strong U.S. presence in 
Latin America could be of help to democratic governments in the 
area who are trying to confront their economic and political 
difficulties, the U.S. under President Clinton very lamentably 
is not having even a marginal impact in some of these 
countries.
    By way of example, two of the most important countries in 
South America, Argentina and Brazil, have been without an 
accredited U.S. Ambassador for over 2 years and about 1 year, 
respectively. Yet, Argentina is our only non-NATO special ally 
in Latin America, while Brazil is the largest economy in South 
America and a critically important actor in hemispheric trade 
liberalization.
    Now, more than indifference, in my opinion, the U.S. 
administration's growing disengagement from Latin America is a 
symptom of a deeper underlying in U.S. foreign policy, namely 
that the Clinton administration does not have a coherent Latin 
American policy and never has had such a policy. Since 1993, 
this administration has consistently maintained that its 
foreign policy in Latin America consists of promoting free 
trade, consolidating democracy, and defending human rights. 
However, these ideals that the U.S. administration seeks to 
achieve do not in and of themselves constitute a foreign 
policy, but rather a statement of policy objectives that we 
hope to achieve. Still missing are the regional and country-
specific strategies designed to achieve our policy objectives 
in Latin America.
    Thank you.
    [The prepared statement of Mr. Sweeney follows:]

                 Prepared Statement of John P. Sweeney

    In assessing the state of democracy and rule of law in the 
Americas, one can point to both good and bad news. The goods news is 
that, generally speaking, democracy and rule of law are stronger today 
throughout Latin America than was the case only a decade ago. Having 
said that, however, the bad news is that the region's democracies 
remain very fragile, and rule of law remains very tenuous in many Latin 
American countries. Political corruption, organized crime and drug 
trafficking are pervasive throughout the region, and are becoming more 
so with each day that passes.
    While the U.S. Administration focuses all of its attention on 
Kosovo, storm clouds are gathering closer to home, particularly in 
South America where a succession of economic and political crises 
during the first four months of 1999 have raised legitimate concerns 
about the region's democratic stability.
    The recent outbreak of economic and political turmoil in Latin 
America is taking place following more than two consecutive years in 
which economic freedom expanded at a faster pace in South America than 
any other developing region of the world. Now that progress is 
threatened in several countries, especially Paraguay, Ecuador, Peru, 
Venezuela, and Colombia.
    In Paraguay, a deadly power struggle between competing factions of 
the long-ruling Colorado party led to the assassination of the Vice 
President and impeachment of the President, who fled to asylum in 
Brazil. This conflict was not between democrats and would-be coup 
leaders. Instead, it was a power struggle between competing and very 
corrupt factions within the long-ruling Colorado party. The fact is 
that Paraguayan politicians have little taste for true democracy and 
open markets. Additionally, Paraguay is home to Ciudad del Este on its 
so-called Triple Frontier with Brazil and Argentina. Ciudad del Este is 
a major center in South America for organized smuggling of merchandise 
goods, and other criminal activity such as drug trafficking, money 
laundering, black market arms sales, and terrorism. Paraguay is only 
nominally a democracy.
    In Ecuador, the combination of the El Nino weather phenomenon in 
1998, political and corporate opposition to government economic 
reforms, plus chronic corruption, bankrupted the economy of that 
country. The IMF is bailing out Ecuador so that it will not be forced 
to default on its foreign debt obligations. However, the Ecuadorean 
people, its business leaders and the government's political opposition 
clearly have no taste for the kind of austerity and restructuring 
measures which are needed desperately to place the economy of Ecuador 
on a sound footing.
    In Peru, the overall economy is weathering the effects of the 
Brazilian crisis in relatively good condition, but President Fujimori, 
whose government is backed by the military, wants to extend his 
presidency for a third five-year term as of 2000. Since Fujimori 
carried out his self-coup in 1992, he has succeeded in defeating the 
bloody Sendero Luminoso and Tupac Amaru insurgencies, and in putting 
the economy on a fast-growth path. However, Peru under Fujimori has 
also suffered an increase in human rights abuses committed by the 
government, official repression of free speech, political persecution 
of Fujimori's critics, and a deepening of corruption within the 
military establishment that controls the country in silent 
``partnership'' with Fujimori.
    The Caribbean region has become the playground of Colombian and 
Mexican drug traffickers. The Dominican Republic and Haiti have become 
major drug transit routes. Puerto Rico has become the main Caribbean 
staging point for shipping drugs to the mainland U.S. Since it is a 
U.S. Commonwealth territory, once the drugs arrive ``in country'' it is 
easier to ship them by air on domestic U.S. flights--which are not 
monitored as closely as foreign flights.
    On December 31, 1999, the last U.S. military forces will withdraw 
from Panama, leaving that country without the ability to defend itself 
from destabilizing incursions by Colombian guerrillas, para-militaries 
and drug traffickers. Some critics doubt that the Panamanian government 
can maintain and operate the Panama Canal efficiently. Many Panamanians 
also share those doubts.
    Measured against these countries, the situation in Brazil and 
Mexico appears to be positively bullish. The economic crisis in Brazil 
appears to be easing, and the Mexican economy has grown stronger thanks 
mainly to its membership in the North American Free Trade Agreement 
(NAFTA). However, a note of caution about both countries.
    The economy of Brazil may well start to recover in the second half 
of 1999, as the Cardoso government and IMF are both predicting, but the 
Brazilian people will continue to suffer for years the effects of the 
economy's 4-6% projected contraction this year. Brazil accounts for 
about half of the poorest people in Latin America. As in Mexico after 
the 1995 peso crisis, the effects of the economic crisis in Brazil will 
include a severe and prolonged downturn of living standards in the 
domestic or non-export economy, accompanied by an increase in 
unemployment, crime and govermnent corruption.
    As for Mexico, the NAFTA has clearly helped to strengthen the 
Mexican economy as it becomes more closely integrated with the U.S. 
economy. Mexico today is our second most important trading partner. 
Measured overall, NAFTA has been a major commercial success. However, 
that success has been eclipsed almost completely by the emergence of 
Mexico as a major force in the U.S.-Latin America drug trade. Mexico 
has become the principal gateway for over 60% of the illegal cocaine 
smuggled into the U.S. each year. Government corruption is endemic here 
too, especially among police and military officials. Drug-related 
corruption in Mexico reached very close to the highest levels of power 
during the Salinas Administration. During the Zedillo Administration, 
there have been numerous cases of drug-related corruption within the 
Mexican military and police establishments. Mexican drug traffickers 
have amassed significant political and economic influence in Mexico 
during the past decade, while in the U.S. they control the drug trade 
from the Southwest to the Pacific Northwest. They have also gained 
market share at the expense of Colombian drug traffickers on the 
Eastern seaboard from South Florida to Maine.
    In 1994 the expansion of free trade was at the top of the U.S. 
Administration's foreign policy agenda for Latin America. Today the top 
U.S. foreign policy priority in Latin America is the war on drugs, and 
Colombia is the epicenter of that war. So I'm going to focus on 
Colombia, and its neighboring country Venezuela, for the balance of my 
presentation.
    On March 25, 1999, The Heritage Foundation published a second 
policy study entitled ``Tread Cautiously in Colombia's Civil War.'' 
That paper has been included as an appendix to this testimony today.
    Colombia today is in danger of breaking up as a nation. After 34 
years of war against the Colombian State, the Communist insurgents that 
belong to the Revolutionary Armed Forces of Colombia (FARC) and the 
National Liberation Army (ELN) have gained the upper hand politically 
and, increasingly, in military terms as well. Since the late 1980s, the 
FARC and ELN insurgencies have financed their growth and activities by 
engaging in the illegal drug trade. Today they control over half of 
Colombia's national territory, including a demilitarized area in 
southern Colombia of 16,216 square miles--nearly twice the size of El 
Salvador--that President Pastrana gave the rebels on November 7, 1998. 
Moreover, since early 1997 the rebels have inflicted a series of 
stunning defeats on the Colombian Army in open maneuver combat.
    President Pastrana is suing for peace at all costs. The Colombian 
government has flatly ruled out any option other than a negotiated 
settlement, even though the guerrillas have maintained their attacks 
against Colombian army and police forces. Moreover, the narco-rebels 
have continued to kidnap foreigners, including three American citizens 
who were snatched in Colombia and subsequently murdered in cold blood 
in Venezuelan territory.
    President Pastrana's stance of ``peace at all costs'' stance is 
symptomatic of a profound lack of will by the Colombian government, and 
by Colombia's political and business elites, to confront the narco-
rebels and defeat them in battle. Instead of strengthening the 
Colombian armed forces, the Pastrana Government appears to hope that, 
if the peace process fails completely, the U.S. will come into the 
breach to bail out Colombia. What makes this lack of Colombian will 
particularly alarming is the Clinton Administration's confusion about 
what needs to be done in Colombia to terminate the Communist insurgency 
and contain the illegal drug trade that accounts for as much as seven 
percent of Colombia's annual gross domestic product (GDP). Congress 
must guard against any efforts by the Clinton Administration to send 
U.S. soldiers to Colombia, and must also guard against any efforts by 
the politically weak Pastrana government to dump responsibility for 
ending Colombia's civil war on the shoulders of American soldiers and 
taxpayers.
    In Venezuela, which is suffering perhaps its worst economic crisis 
in this century, President Hugo Chavez Frias is seeking to centralize 
all power in his hands with the backing of some (but not all) elements 
of the Venezuelan military. A new banking crisis is looming, like the 
one five years ago that cost Venezuela 14% of its gross domestic 
product in 1994. Moreover, the non-oil economy is completely paralyzed 
while investors and producers wait for the final outcome early next 
year of the constituent assembly that Chavez is pushing vigorously. 
However, the constituent assembly will not resolve Venezuela's economic 
crisis. When the poor Venezuelans who elected Chavez realize that the 
constituent assembly will not create jobs, ease their hunger or improve 
their wretched living standards, they may turn against him with the 
same ferocity they showed towards former President Carlos Andres Perez 
in February 1989, when the country was rocked by bloody riots that 
lasted a week and caused over 300 violent civilian deaths.
    While it is too early to write off the Chavez government in 
Venezuela as a failure, it is appropriate to include some general 
remarks based on his first three months in office.

          1. Chavez has an apocalyptic salvation project that may 
        further destabilize Venezuela in the next 6-12 months. His 
        vision is populist, socialist, statist and militaristic. 
        Moreover, his rhetoric indicates that the kinds of 
        constitutional reforms that Chavez has in mind would involve 
        more government ownership, control and regulation of all 
        economic activity, and fewer political freedoms for his 
        opponents. He speaks of ``participative'' democracy instead of 
        ``representative'' democracy.
          2. Chavez says he supports democracy and free markets, but 
        his actions show otherwise. Currently, over 300 active duty 
        military officers are in civilian government posts. 
        Additionally, since Chavez became President last February more 
        than 2,000 former military personnel have been appointed to 
        local, regional and national security jobs throughout 
        Venezuela. Moreover, Chavez has called repeatedly for the 
        dissolution of both the Venezuelan Congress and Supreme Court, 
        and he also supports eliminating free elections for state 
        governors.
          3. Since assuming the presidency barely three months ago, 
        Chavez has demonstrated a growing bias against the United 
        States. For example, Chavez personally lobbied against the U.S. 
        in the recent UN vote in Geneva on Cuba's human rights 
        violations. His Foreign Minister, Jose Vicente Rangel, has 
        openly disparaged the U.S. Ambassador in Venezuela, and has 
        stated that Venezuela henceforth will vote in the UN with 
        countries the likes of Cuba, the People's Republic of China, 
        Iraq, and Libya. Chavez has also cozied up to Cuban dictator 
        Fidel Castro, and has interfered in the Colombian civil war 
        with a decided preference towards the Communist narco-
        guerrillas of that country.
          4. Chavez does not have a viable economic plan to pull 
        Venezuela out of its present crisis. He has little interest in 
        economic matters, except as they may affect his constitutional 
        reform project. Moreover, Chavez does not have a coherent 
        economic team, and his Cabinet is not composed of first-rate 
        individuals qualified professionally for the posts they now 
        hold.
          5. Chavez has created impossibly high expectations among the 
        Venezuelan people that he cannot meet. It's not clear yet how 
        the Venezuelan people will react when they finally realize that 
        writing a new constitution will not improve their socioeconomic 
        standard of living. While the constituent assembly process 
        unfolds over the next 6-12 months the public's support for 
        Chavez may hold up, especially if he launches very public 
        efforts to detain and imprison anyone perceived as being 
        corrupt. Obvious targets for such arrests are the traditional 
        politicians and business elites who wrecked Venezuela, but that 
        circus won't last indefinitely. When the constituent assembly 
        process finally ends with a new Constitution, the Venezuelan 
        people will realize that populism is no substitute for sound 
        free market policies, and at that point outbreaks of violence 
        will be very likely to occur in Caracas and other major cities.
          6. Chavez enjoys widespread support within the Venezuelan 
        armed forces, but that support is not unanimous. Moreover, the 
        Venezuelan National Guard, which succeeded in blocking two 
        failed military coup attempts in 1992 (the first one led by 
        Chavez), does not back Chavez. Therefore, any attempt by Chavez 
        to launch a Fujimori-style self-coup would undoubtedly result 
        in street battles between armed forces and National Guard 
        units.

    No Latin America Policy. The United States could have done very 
little to prevent any of these economic and political difficulties from 
erupting across the region in recent months. However, the Clinton 
Administration's extended disengagement from Latin America has 
complicated the region's problems by projecting the mistaken message 
that South America is not a region of great importance to the United 
States. At a time when a strong U.S. presence in South America could be 
of help to democratic governments in the area in confronting their 
economic and political difficulties, the U.S. under President Clinton 
is not having even a marginal impact.
    For example, two of the most important countries in South America--
Argentina and Brazil--have been without an accredited U.S. Ambassador 
for over two years and about one year, respectively. Argentina is the 
only non-NATO special ally in Latin America, while Brazil is the 
largest economy in South America and a critically important actor in 
hemispheric trade liberalization. Meanwhile, in Chile, the Clinton 
Administration's ambiguous response to the illegal detention of the 
former Chilean President, General Augusto Pinochet, has helped to 
reopen old wounds that still fester deeply in Chilean society.
    Moreover, while President Bill Clinton was in Central America last 
March pledging $954 million of reconstruction aid for countries 
devastated by Hurricane Mitch, he said nothing about helping Ecuador 
recover from the nearly $3 billion of damage caused in 1998 by the 
weather phenomenon known as El Nino. Instead, President Clinton 
formally apologized to Guatemala and other Central American countries 
for alleged American military involvement in human rights abuses 
committed during the 1970s and 1980s, even though the U.S. military 
never was involved directly or indirectly in such abuses.
    More than indifference, the Clinton Administration's growing 
disengagement from South America is a symptom of a deeper underlying 
problem in U.S. foreign policy, which is that the Clinton 
Administration does not have a coherent Latin America policy. Since 
1993, the Clinton Administration has consistently maintained that its 
foreign policy in Latin America consists of promoting free trade, 
consolidating democracy, and defending human rights. However, these 
ideals that the U.S. Administration seeks to achieve do not constitute 
a foreign policy, but rather a statement of policy objectives. Still 
missing are the regional and country-specific strategies designed to 
achieve these policy objectives.

                              [Appendix I]

                Tread Cautiously in Colombia's Civil War

                           executive summary
    After six years of ignoring the growing connection between 
Colombia's drug traffickers and Marxist rebels bent on toppling the 
democratically elected government, President Bill Clinton has decided 
to increase U.S. military aid to Colombia to step up efforts in the war 
on drugs. He is also backing a questionable peace plan proposed by 
newly elected Colombian President Andres Pastrana to negotiate with the 
Revolutionary Armed Forces of Colombia (FARC) and the National 
Liberation Army (ELN), two Marxist guerrilla organizations that have 
battled the Colombian state for over three decades. In fact, General 
Barry McCaffrey, head of the White House Office on National Drug 
Control Policy, has stated that the FARC is ``heavily involved in 
protecting, transporting, and in some cases operating drug labs.''
    Pastrana maintains that after a peace pact is signed, the rebels 
will aid the government in fighting Colombia's war on drugs. If 
Pastrana's peace initiative fails, his only options will be to 
surrender nearly half of Colombia to the over 20,000 well-armed FARC 
and ELN insurgents, or to order the Colombian army to try and defeat 
them in battle. However, the Colombian army is not capable of defeating 
them. U.S. defense experts estimate that it will take at least two 
years to train, equip, and field a modern professional Colombian army 
capable of defeating rebel units of between 300 and 1,000 guerrillas.
    The United States should do all it can to help Pastrana's new 
Colombian government end the country's decades-old civil war and 
eliminate the illegal drug trade. However, in January 1999, the FARC 
announced that all U.S. military and law enforcement personnel in 
Colombia would be considered legitimate targets to be killed or 
captured. Before endorsing the Administration's decision to increase 
U.S. military involvement in Colombia, Congress must know how the 
Administration will react if the peace talks break down.
    President Clinton's priorities in sending additional military aid 
to Colombia are unclear. Is the increased military aid to Colombia to 
be used to fight drug traffickers, or will some of it be spent training 
Colombian army forces to battle the rebels, who earn close to $1 
billion from drug trafficking, kidnapping, extortion, and other crimes 
each year? Moreover, what measures will the Administration take if 
Pastrana's peace talks fail and the civil war becomes more violent? 
Would the President propose sending U.S. soldiers to Colombia to help 
keep the peace, as he has done in Bosnia, Haiti, Kosovo, and Somalia?
    The peace talks, which officially opened on January 7, 1999, 
promptly stalled because the rebels have no real incentive to negotiate 
an agreement. They believe they have the upper hand politically and, 
increasingly, in military terms as well. Even if Pastrana successfully 
negotiates peace, the illegal drug trade will not be affected. Cocaine 
and heroin are Colombia's largest export products, ahead of coffee and 
petroleum, and they account for between 5 percent and 7 percent of the 
country's annual gross domestic product. If, as part of the agreement, 
the rebel organizations do crack down on the illegal drug trade in the 
areas they control, the drug traffickers will simply move operations 
elsewhere.
    In December 1998, the Clinton Administration acknowledged that U.S. 
policy in Colombia is being set by default. This is an alarming 
admission, given President Clinton's decision to increase U.S. military 
aid--including sending additional U.S. military advisers into a country 
where over 200 American military and law enforcement personnel are 
currently stationed. Before agreeing to the President's plan, Congress 
should ensure that the Administration's Colombia policy is based on a 
clear strategy that spells out objectives and limitations. U.S. 
soldiers must not be sucked by default into Colombia's civil war. 
Specifically, Congress should:

  <bullet> Initiate a thorough review of U.S. drug policy in Latin 
        America. With trade expansion off the Administration's policy 
        agenda indefinitely, Congress should ascertain if U.S. anti-
        drug aid to Latin American law enforcement and military forces 
        is being used properly and effectively before considering 
        increasing the aid.
  <bullet> Abolish the annual drug certification process. Certification 
        has become a pointless annual exercise that compresses the 
        national drug policy debate to three or four weeks a year, yet 
        one that poisons relations with America's most important Latin 
        American allies and trading partners.
  <bullet> Set clear limits on U.S. military aid to Colombia. Congress 
        should ensure that no U.S. soldiers participate in battles 
        between the Colombian army and drug-trafficking rebel 
        organizations.
  <bullet> Manage the drug-related insurgency as a law enforcement 
        problem. The FARC and ELN rebels are involved in drug 
        trafficking, and as such should be treated as organized 
        criminals who are an integral part of the drug threat facing 
        the Western hemisphere.
  <bullet> Implement a serious anti-drug assistance program with 
        Colombia. In demanding better results from the Colombian 
        government, the U.S. Administration failed to provide 
        sufficient material support, which seriously undermines the 
        anti-drug efforts of Colombian law enforcement and indirectly 
        helps the rebels gain the upper hand in combat.
  <bullet> Agree to help train and equip a professional Colombian army. 
        A civil war in Colombia can threaten U.S. interests in Latin 
        America, but the conflict can be solved only by the Colombians. 
        The United States should aid the democratically elected 
        government to field a modern, professional Colombian army that 
        is capable of defeating the rebels in combat.
  <bullet> Seek a multilateral approach to managing the Colombian 
        crisis. A unilateral increase in military aid to Colombia 
        without a counterbalancing multilateral approach involving key 
        Latin American countries would be repudiated in the region as 
        U.S. imperialism. A multilateral approach should include the 
        participation of the Organization of American States, 
        especially in monitoring reported human rights abuses in 
        Colombia.
                               conclusion
    It is clearly in America's national interest to help Colombia end 
its civil war and eradicate illegal drugs, but the Clinton 
Administration should tread cautiously in escalating U.S. military 
involvement in Colombia. President Clinton and Members of Congress 
would be wise to remember that America's involvement in the Vietnam war 
began with a few dozen U.S. military advisers and a small financial 
investment. If the limits of U.S. military involvement in Colombia are 
not spelled out clearly at the outset, the risk is great that 
significant numbers of U.S. soldiers could, by default, be sucked into 
the Colombian quagmire.
                                 ______
                                 

                Tread Cautiously in Colombia's Civil War

    The marriage of Communist insurgency and drug trafficking in 
Colombia, the world's largest producer of coca leaf and cocaine, has 
elevated a decades-old civil conflict into a dangerous war that now 
threatens stability in Latin America. It also endangers vital U.S. 
interests in the region, including the war on drugs.
    Colombia produces 80 percent of the cocaine and two-thirds of the 
heroin making its way into the United States.\1\ According to the 
Colombian Finance Ministry, the illegal trade brings in between $3 
billion and $5 billion a year, making it Colombia's top export 
earner.\2\ The amount of land in Colombia devoted to the cultivation of 
coca--the raw material for cocaine--increased in 1998 alone by 28 
percent, according to General Barry McCaffrey, head of the White House 
Office on National Drug Control Policy.\3\
---------------------------------------------------------------------------
    \1\ Douglas Farah, ``Colombian Army Fighting Legacy of Abuses,'' 
the Washington Post, February 18, 1999, p. A15.
    \2\ Reuters, ``Drug Hauls and Kidnappings in Colombia Surged in 
1998,'' the Los Angeles Times, December 20, 1998, p. A4.
    \3\ John Otis, ``Despite Eradication Bid, Another Bumper Coca 
Crop,'' the Houston Chronicle, February 12, 1999, p. 28.
---------------------------------------------------------------------------
    During the late 1980s and early 1990s, the United States worked 
closely with both the Colombian police and military. But in 1993, the 
Clinton Administration sharply reduced military aid to the Colombian 
army because of its poor record on human rights. Meanwhile, the 
Administration insisted that Colombia step up its drug interdiction 
efforts, and it imposed economic sanctions on Colombia from 1995 to 
1998. That policy undermined U.S. relations with Colombia as well as 
with other Latin America countries.
    However, since the election in 1998 of Colombian President Andres 
Pastrana, the Clinton Administration has increased anti-drug aid to 
Colombia, from $100 million in 1997 to $289 million. Moreover, 
President Clinton recently announced he will increase U.S. military aid 
to Colombia to step up efforts to fight the drug traffickers.\4\ And he 
endorsed Pastranas plan to eradicate the drug trade through alternative 
crop development programs that are financed by the United States and 
other countries.
---------------------------------------------------------------------------
    \4\ Although the Administration is providing $40 million of 
training, intelligence, and logistical support to Colombia during 1999, 
U.S. military aid can be expected to increase over the next two or 
three years as the Colombian civil war escalates. Moreover, more 
military aid likely will be accompanied by an increasing number of U.S. 
military advisers in Colombia.
---------------------------------------------------------------------------
    The wisdom of his decisions is questionable. Colombia is perilously 
close to internal collapse. If that happens, Colombia could become a 
Balkan-type problem in America's backyard, with much of its northern 
territory controlled by paramilitary groups and drug traffickers, 
southern Colombia controlled by Marxist rebels, and the government 
hanging on to the urban central region that includes the important 
cities of Bogota, Medellin, and Cali. Such a balkanization of Colombia 
into volatile mini-states, with its ensuing political and social 
instability, would contribute to a tremendous explosion in the illegal 
narcotics trade.
    The United States should help the Colombian government end its 
civil turmoil peacefully and terminate the illicit drug trade. It 
should also help the government disarm the paramilitary groups and 
encourage the Pastrana government to stop the systematic human rights 
abuses reportedly committed by members of Colombia's armed forces. 
These goals are consistent with U.S. foreign policy objectives in Latin 
America of expanding free trade, consolidating democracy, and 
eradicating the illegal drug trade. However, greater direct U.S. 
military involvement in Colombia's civil war is not. In addition, in 
January 1999, one of the rebel organizations announced that all U.S. 
military and law enforcement personnel in Colombia would be considered 
legitimate targets to be killed or captured.\5\ Furthermore, ``If they 
are in army or police barracks and there is a fight, we will confront 
them, rebel leader Raul Reyes said.'' \6\
---------------------------------------------------------------------------
    \5\ Agence France Presse, ``Colombian Guerrillas Warn US Advisors 
Could Be Targets,'' January 4, 1999.
    \6\ Ibid.
---------------------------------------------------------------------------
    If peace talks between the government and the rebels break down and 
U.S. military advisers are targeted, Congress must know how the 
Administration will react. Before President Clinton obligates U.S. 
troops to become directly involved in fighting Colombia's drug problems 
and civil war, he should establish clear contingency plans to safeguard 
the lives of U.S. military personnel in Colombia in case Pastrana's 
peace plan fails.
    Moreover, before agreeing to increase U.S. military aid to 
Colombia, Congress should:

  <bullet> Initiate a comprehensive review of U.S. drug policy in Latin 
        America;
  <bullet> Abolish the ineffective and politically damaging drug 
        certification process;
  <bullet> Set specific limits on U.S. military aid to Colombia;
  <bullet> Ensure U.S. troops do not become involved in fighting 
        Colombia's civil war by limiting the number of U.S. military 
        advisers and monitoring how the military aid is spent;
  <bullet> Manage the drug-related insurgency as a law enforcement 
        problem;
  <bullet> Implement a serious anti-drug assistance program, building 
        on the $289 million one-year, anti-drug package that Colombia 
        received in October 1998;
  <bullet> Agree to help train and equip a professional Colombian army;
  <bullet> Seek a multilateral approach to managing the Colombian 
        crisis.

                         colombia's peace plan
    The centerpiece of President Pastrana's strategy to end the civil 
war, repair the economy, and terminate the drug trade is a negotiated 
peace pact with the Marxist rebels, who are now involved in drug 
trafficking. Pastrana maintains that after a peace pact is signed, 
these ``narco-rebels'' will help wipe out the drug trade in areas they 
control. As part of his ``Plan Colombia,'' Pastrana agreed to give 
control of a large area of Colombia to the rebels and to fund large-
scale agriculture and infrastructure development programs to substitute 
food crops for coca and opium poppies. Currently, the Colombian 
government estimates this crop effort will cost up to $4 billion 
overall. Most of the money for this effort is to come from the United 
States, other as-yet unspecified countries, and multilateral 
organizations.
    Pastrana's peace plan is unlikely to succeed. First, the Colombian 
government has been unable to counter the growing involvement of 
Marxist insurgents in drug trafficking, and the Colombian army has been 
unable to defeat the rebels in battle. Moreover, the rebels have little 
incentive to abide by a peace agreement because they believe they hold 
the upper hand. Second, by making major concessions to the ``narco-
rebels,'' Pastrana is conferring political status and an implicit 
legitimacy on their efforts. Third, even if the peace talks succeed, 
the illicit drug trade that funds the rebels' activities is unlikely to 
be deterred significantly. Even if the FARC and ELN rebels decide to 
curtail drug operations in their areas, the traffickers will simply 
move their operations. Clearly, President Clinton should not have 
endorsed this plan.
Flaws in Colombia's Peace Plan
    After 34 years of fighting the Colombian government, the Communist 
Revolutionary Armed Forces of Colombia (FARC) and the smaller National 
Liberation Army (ELN) now control nearly half of Colombia's territory. 
Over 35,000 Colombians have been killed in the civil war, and between 1 
million and 2 million have been displaced. Colombian President Andres 
Pastrana has stated that he wishes to end the violence and unite the 
country. He maintains that the rebels are not seeking permanent control 
of any part of Colombia's territory, but instead, once a peace pact is 
signed, will join the government's fight against drug trafficking.
    However, the prospects for a peace accord are poor. FARC's rebel 
leaders say their goal is to establish political control over as much 
of Colombia as they can capture in order to install a Marxist Socialist 
regime.\7\ They will have to fight paramilitary groups to do this. 
Carlos Castano, who heads the largest and most violent paramilitary 
organization in Colombia, warned Pastrana that the paramilitaries ``do 
not share the concept of peace at any price because we consider it 
dangerous for the existence of the nation and its institutions.'' \8\
---------------------------------------------------------------------------
    \7\ Tim Padgett, ``The Backyard Balkans,'' Time, January 18, 1999, 
p. 44.
    \8\ ``Pastrana's Peace Process,'' Latin American Special Report, 
Vol. 6, No. 12 (October 31, 1998), at http://www.latam-news.com.
---------------------------------------------------------------------------
    When the official peace talks began on January 7, 1999, the FARC 
demanded ``sweeping changes in State bodies,'' blamed the United States 
for the political violence that started in 1964, verbally attacked the 
International Monetary Fund, and called for a new constitutional 
assembly to replace the constitution approved in 1991. It demanded that 
the government increase the demilitarized area under its control to 
include five more municipalities.\9\ It also demanded that some 500 
imprisoned guerrillas be freed and all aerial spraying of illegal drug 
crops inside the demilitarized area be halted immediately.
---------------------------------------------------------------------------
    \9\ Inravision TV-A, ``FARC reportedly wants demilitarized zone 
expanded,'' BBC Summary of World Broadcasts, January 19, 1999.
---------------------------------------------------------------------------
    The FARC commander, Manuel Marulanda Velez, even demanded that the 
government recognize the FARC as a military force. FARC wants a new 
military doctrine based on the defense of Colombia's borders, a 
reduction in the size of Colombia's armed forces, and greater respect 
for human rights. It has called for a revision of Colombia's military 
treaties, a 10-year moratorium on Colombia's foreign debt, and a drug 
``solution'' that targets demand in the United States and other large 
consumer countries, instead of interdiction of supply and production in 
Colombia.\10\ Marulanda said he intends to pursue a clear socialist 
agenda that ``combines the best from Soviet socialism, from Chinese 
socialism, from Vietnamese socialism, and from Cuban socialism.'' \11\ 
In alluding to the increased U.S. military aid for Colombia, he added 
that the FARC aspires ``to keep Colombia from becoming a new Vietnam.'' 
\12\
---------------------------------------------------------------------------
    \10\ Bryan Bender, ``2 Fronts, 1 War,'' Jane's Defence Weekly, Vol. 
31, No. 4 (January 27, 1999).
    \11\ Semana, ``Interview with FARC leader Tirofijo,'' BBC Summary 
of World Broadcasts, January 18, 1999.
    \12\ Ibid.
---------------------------------------------------------------------------
    The talks stalled after paramilitary groups killed over 130 
suspected rebel sympathizers. The FARC rebels gave the government until 
April to take firm action against the paramilitary groups. And the ELN 
rebels broke off talks when their demands for a demilitarized zone in 
an area of northern Colombia that would be approximately one-fifth the 
size of the FARC's zone in southern Colombia were rejected.
    FARC and ELN narco-rebels have demonstrated repeatedly that they 
have no real incentive to lay down their arms and negotiate a peaceful 
resolution of the Colombian conflict. (See sidebars.) They have 
continued to assault police and Army units throughout Colombia, killing 
dozens of police and civilians and capturing scores of prisoners and 
weapons. Moreover, on March 4, 1999, the FARC viciously murdered three 
U.S. human rights workers, including two women, by shooting them 
execution-style in the face and chest.\13\
---------------------------------------------------------------------------
    \13\ Adam Thomson, ``Colombia Peace Process Faces Threat,'' the 
Financial Times, March 12, 1999, p. 3.
---------------------------------------------------------------------------
    Although Pastrana insists that the peace talks are starting to 
gather momentum, it appears more likely that the process will drag on 
indefinitely as the rebels try to extract additional political and 
economic concessions. The FARC and ELN clearly feel they have the upper 
hand. If the peace talks fail, Pastrana's only options are to surrender 
Colombia to the rebels or order the Colombian army to fight them. In 
its present state, the Colombian army cannot defeat the rebels. It is a 
garrison army of conscripts who have little tactical and strategic 
training or mobility. The Colombian army is poorly trained, poorly 
equipped, poorly led, and severely tarnished by its long history of 
corruption and human rights abuses.\14\ Moreover, for most of the past 
decade, it has failed to stage a single successful offensive against 
the rebels. In recent years, the Colombian army has lost more than 80 
engagements involving 300 or more guerrillas.
---------------------------------------------------------------------------
    \14\ U.S. Department of State, ``Country Reports on Human Rights 
Practices,'' at http://www.state.gov/www/global/human__rights/
hrp__reports__mainhp.html.
---------------------------------------------------------------------------
    Because he lacks the resources to fight the FARC and ELN 
successfully, Pastrana is pursuing peace with foes whose stated goals 
include toppling his government. Since his inauguration on August 7, 
1998, Pastrana has conferred full political recognition of FARC and ELN 
rebels and acknowledged their political and administrative control over 
nearly half of Colombia. Moreover, on November 7, 1998, he 
demilitarized a region of 16,216 square miles in southern Colombia--an 
area that is twice the size of El Salvador where more than a third of 
Colombia's illegal narcotics crops are grown--by withdrawing all 
Colombian soldiers and police. Originally, the FARC-controlled zone was 
to be demilitarized by February 7, 1999, but Pastrana extended that 
deadline until the end of May 1999.
Who Are the Rebels?
    On April 8, 1998, U.S. Marine Corps General Charles Wilhelm of the 
U.S. Southern Command (Southcom) warned that Colombia's armed forces 
are incapable of defeating Marxist guerrillas in the Revolutionary 
Armed Forces of Colombia (FARC) and National Liberation Army (ELN).\15\ 
Three days later, FARC's high command urged ``all revolutionary'' 
forces to unite and fight U.S. involvement in Colombia in a communique 
stating that ``the open meddling of the empire (the United States) in 
Colombia's internal affairs fully justifies the armed revolutionary 
struggle.'' \16\
---------------------------------------------------------------------------
    \15\ Thomas B. Hunter, ``FARC Proposes Anti-US Unity,'' Jane's 
Intelligence Review, Vol. 5, No. 6 (June 1, l998), p. l6.
    \16\ Ibid.
---------------------------------------------------------------------------
    The FARC was established in 1966 as the military wing of the 
Colombian Communist party. The smaller ELN began in the 1960s, and was 
inspired by Fidel Castro's revolution in Cuba. For over three decades, 
these rebels sought to establish a Marxist Colombian state by force of 
arms. Until the 1980s, the FARC had fewer than 1,000 guerrillas, but 
over the past decade, it has grown to at least 15,000 well-armed 
guerrillas. The ELN now boasts about 5,000 guerrillas.
    The largest concentrations of FARC guerrillas--and the biggest 
expanse of coca fields in Colombia--are located within a regional 
triangle in southern Colombia. The FARC controls about 50 small ports 
in the Gulf of Uraba in northern Colombia through which it smuggles 
weapons and precursor chemicals for manufacturing cocaine and heroin 
from Panama. The FARC and ELN control and administer about half of the 
Colombian national territory. More than 57 percent of the country's 
mayors support or obey them. \17\ They patrol the roads and waterways, 
regulate fishing, and hold trials for suspected criminals. In some 
areas, they created public services and agriculture credit banks and 
collect funds for road improvements at toll stations.\18\
---------------------------------------------------------------------------
    \17\ David Spencer, ``A Lesson for Colombia,'' Jane's Intelligence 
Review, Vol. 9, No. 10 (October 1, 1997), p. 474.
    \18\ Outside Colombia, the FARC has opened representative offices 
in Venezuela, Mexico, Argentina, Ecuador, and Spain, and in 1998 sought 
unsuccessfully to open a sixth office in Brazil similar to what the 
Palestinian Liberation organization (PLO) was allowed in Brazil during 
the early 1980s.
---------------------------------------------------------------------------
    The FARC exploited the demise of the cocaine cartels in the l980s, 
first by providing security to drug crops and clandestine labs, and 
later as coca growers and operators of illegal processing labs. Today, 
some rebel units own warehouses and aircraft and control clandestine 
airfields that formerly belonged to the Medellin or Cali cartels.\19\ 
The Colombian government has estimated that the FARC and ELN earned 
over $900 million from drug trafficking and kidnapping in 1997. 
According to General Rosso Jose Serrano, chief of the Colombian 
National Police, the FARC completes guns-and-cash-for-drugs deals with 
organized crime groups in Chechnya, Russia, Ukraine, and 
Uzbekistan.\20\
---------------------------------------------------------------------------
    \19\ Colombian National Police estimates that in 1997 about 3,155 
guerrillas were directly involved in protecting drug crops, 
laboratories and airstrips, as well as collecting war taxes from those 
associated with the drug business. Between 1994 and 1998, guerrillas 
fired over 160 times at Colombian police aircraft and helicopters on 
anti-drug operations, killing 44 anti-drug agents and wounding 75 
others.
    \20\ Jamie Dettmer, ``Drug War on U.S. Streets is Fought in 
Colombia,'' Insight on the News, November 24, l997, p. 36.
---------------------------------------------------------------------------
A Catalog of Rebel Attacks
    Since 1994, the intensity of Colombia's guerrilla war has 
increased. The FARC demonstrated in the past two years alone that it 
has the ability to confront and defeat Colombian army units in open 
combat and amass large units against multiple targets around Colombia, 
and the ELN has demonstrated its intentions clearly as well: \21\
---------------------------------------------------------------------------
    \21\ Ibid.

  <bullet> On February 26, 1998, a Colombian army brigade was 
        dispatched to break up a concentration of 600 guerrillas 
        reportedly ready to attack Cartagena del Chaira near the Caguan 
        River. The guerrillas organized a successful ambush. After 
        three days, 80 soldiers had been killed, 43 captured, and the 
        rest dispersed in the jungle.\22\ This was the first time the 
        FARC defeated a large elite Colombian army unit in maneuver 
        warfare.\23\
---------------------------------------------------------------------------
    \22\ David Spencer, ``Bogota continues to bleed as FARC find their 
military feet,'' Jane's Intelligence Review, Vol. 10, No. 11 (November 
1, 1998), p. 35.
    \23\ FARC can now field its entire force--l5,000 fighters--on 
sustained operations for up to one week at a time. The M-16 has 
replaced the Soviet-era Kalashnikoff assault rifle as the guerrillas' 
weapon of choice, which is smuggled into Colombia from Central America 
by Arab smugglers operating out of Panama and Ciudad del Este, a South 
American city located where the borders of Argentina, Brazil and 
Paraguay meet.
---------------------------------------------------------------------------
  <bullet> In the first week of August 1998, before Pastrana was 
        inaugurated, the FARC and ELN launched at least 42 attacks in 
        14 different sectors. More than half of the attacks involved 
        guerrilla units of 300 to 1,000 fighters. After two weeks of 
        fighting, 104 military and police were dead and between 129 and 
        158 government troops taken prisoner; 243 guerrillas had been 
        killed.
  <bullet> On October 18, 1998, the ELN sabotaged Colombia's main oil 
        pipeline, causing a huge fire that destroyed the small village 
        of Machuca; 45 people burned to death and another 26 died later 
        from severe burns.\24\
---------------------------------------------------------------------------
    \24\ Radio Cadena Nacional, ``ELN rebels to continue attacks on oil 
facilities,'' BBC Summary of World Broadcasts, November 4, 1998.
---------------------------------------------------------------------------
  <bullet> On November 2, 1998, the 120-man police detachment in Mitu, 
        a town of 14,000 located about 400 miles from Bogota near the 
        border with Brazil, were assaulted by up to 1,000 FARC 
        guerrillas who arrived by river. About 80 police and 10 
        civilians were killed, and 40 police were taken prisoner. FARC 
        units ambushed about 500 soldiers and police approaching the 
        besieged town by land. At least 28 soldiers and police were 
        killed in that attack.\25\
---------------------------------------------------------------------------
    \25\ Ibid.
---------------------------------------------------------------------------
  <bullet> On March 4, 1999, the FARC viciously murdered three U.S. 
        human rights workers, including two women, by shooting them 
        execution-style in the face and chest.\26\
---------------------------------------------------------------------------
    \26\ Thomson, ``Colombia Peace Process Faces Threat.''

    In the majority of these attacks, the guerrillas covered their 
withdrawal by placing scattered land mines and ambushing groups of 
approaching soldiers.\27\ The FARC is also able to jam Colombian army 
and police communications with electronic equipment in small aircraft.
---------------------------------------------------------------------------
    \27\ ``Some 100 dead as Colombian soldiers, rebels battle,'' Agence 
France-Presse, November 3, 1998.
---------------------------------------------------------------------------
    The United States should support a sensible effort by the Colombian 
government to end the civil war, eradicate illegal drugs, and overcome 
the country's economic slump. However, Pastrana's ``Plan Colombia'' 
will not achieve these objectives for these reasons:
    <bullet> It is not a peace plan. Pastrana's peace proposal is 
little more than a white flag signaling the government's surrender. 
Instead of unifying Colombia as a single nation, Pastrana's plan will 
likely balkanize it. Colombia's urban centers would remain nominally 
under the government's control, but most rural territory would fall 
under rebel and paramilitary control. According to Pastrana, by 
agreeing to the plan, the rebels would give up nearly $1 billion a year 
in proceeds from drug trafficking and extortion. But these lost 
``earnings'' would need to be offset by a massive infusion of 
internationally financed cash and development aid. This is not a 
Marshall Plan, as President Pastrana would have the United States 
believe; it is a transfer of wealth to Communist rebels that will not 
guarantee their criminal activities will cease. In the United States, 
this would be called extortion.
    <bullet> It fails to implement serious reform plans. To achieve 
lasting peace, Pastrana must change Colombia's institutions and 
legitimize and protect private property rights. Moreover, he must 
change the culture of institutionalized corruption, violence, and 
systematic abuse of human rights. Although the involvement of the FARC 
and ELN rebels in drug trafficking, kidnapping, extortion, and cattle 
rustling makes them criminals, and not revolutionaries, the fact 
remains that some of their grievances against the Colombian state are 
valid. Historically, the ruling political class has sought self-
enrichment and ignored the needs of the people. In addition, it has 
ignored the need to strengthen Colombia's military with resources 
sufficient to defeat the Communist insurgency. Significantly, both the 
rebels and the paramilitaries who oppose them share similar and 
skeptical opinions about the new government's willingness to negotiate 
an agreement based on real institutional reforms.
    <bullet> It weakens the government's position while strengthening 
the rebel position. Pastrana's actions have weakened the government's 
negotiating position and strengthened the rebel position. He conceded 
giving up 16,216 square miles of land and began discussing a prisoner 
exchange months before the official peace talks began. He legitimized 
the FARC by acknowledging their administrative control over large parts 
of Colombia and downplaying their involvement in the drug trade. And 
although he has replaced the high command of the armed forces with 
officers who are known to be honest and concerned about human rights, 
he has been slow to articulate a plan to modernize and strengthen the 
armed forces quickly. Meanwhile, the rebels exploit his concessions to 
make him appear weak to Colombians and the world. For example, when the 
peace talks were officially launched on January 7, 1999, Pastrana sat 
alone at the dais while the FARC commander-in-chief sent a low-ranking 
official to read a letter attacking the government--and the United 
States as an imperial aggressor--but which said little about peace.
    <bullet> It is unlikely to satisfy the different groups involved in 
the crisis. All of the key parties involved in the peace process--the 
government, the FARC and the ELN, the paramilitaries, the armed forces, 
and the Clinton Administration--have different expectations. Pastrana 
wants to demobilize the insurgency and end the political violence that 
is hurting the people and the economy and damaging Colombia's image. 
Eradicating illegal narcotics is a secondary consideration. U.S. and 
Colombian law enforcement officials claim that Pastrana ordered all 
counter-narcotics operations halted in the FARC-controlled 
demilitarized zone as long as the peace process is ongoing.\28\
---------------------------------------------------------------------------
    \28\ Tod Robberson, ``U.S. Pins Anti-Drug Aid to Colombia's Plan 
for Rebel-Run Zone,'' the Dallas Morning News, February 11, 1999, p. 
18A.
---------------------------------------------------------------------------
    The FARC and ELN rebels want to establish a Marxist government in 
nearly half of Colombia's territory, nationalizing banks and natural 
resource industries, redistributing land to millions of peasants, and 
expelling foreign investors. Klaus Nyholm, head of the United Nations 
Drug Control Program in Colombia, says that the FARC and ELN rebels 
``speak like a handout from the Soviet embassy in the 1970's. They 
don't have any definite ideas about what they would do. Their main idea 
is that the (Colombian) government and the international community 
should come in with massive assistance.'' \29\ Meanwhile, the 
paramilitaries who are financed by private landowners and drug 
traffickers are determined to wipe out the FARC and ELN at any cost. 
They also oppose free-market policies that Colombia has followed since 
1990. The drug traffickers want to continue doing business, regardless 
of who runs the country.
---------------------------------------------------------------------------
    \29\ John Otis, ``Columbian (sic) Guerrillas Unlikely Allies in War 
on Drugs; U.S. Doubts Offer to Help Replace Coca and Opium With Legal 
Crops,'' the Houston Chronicle, February 14, 1999, p. A30.
---------------------------------------------------------------------------
    The Colombian army's credibility and image have been tarnished by 
high-level corruption in the chain of command, and systematic human 
rights abuses. It hopes to erase this image and the humiliation it has 
suffered from an inability to control the rebels by destroying the 
rebels instead of making peace.
    The Clinton Administration is supporting the peace process to the 
extent that it helps to eliminate illegal drug trafficking. For 
example, the U.S. Administration and Congress both warned the Colombian 
government that any reductions or delays in carrying out large-scale 
aerial spraying of illicit drug crops within the FARC's demilitarized 
zone would lead to a suspension of U.S. anti-drug aid.\30\
---------------------------------------------------------------------------
    \30\ Ibid.
---------------------------------------------------------------------------
    U.S. and Colombian business interests care less about drugs and 
guerrilla insurgencies than about creating a stable economic 
environment that is conducive to investment, growth, and profits. The 
FARC and ELN insurgency inflicts destruction that is equivalent to 
between 4 percent and 5 percent of the annual gross domestic product, 
which scares away billions of dollars in potential foreign investments.
    <bullet> The rebels have no real incentive to negotiate peace and 
then adhere to an agreement. One of two conditions must exist in order 
to conclude a successful peace agreement. Either one side is so strong 
that the other side is compelled to seek peace, or both sides must have 
a genuine desire for peace. The guerrillas are not strong enough in 
military terms to capture Colombia's urban centers and topple the 
elected government, but they have clearly defeated the Colombian army 
in jungle warfare and achieved sufficient legitimacy to shape the 
political agenda. The extent of the FARC and ELN's alleged desires for 
peace should be weighed against their continued attacks on military and 
police units and their stated determination to capture and control as 
much of Colombia as they can.
    <bullet> The rebels are part of the drug trafficking problem. 
During a visit to the United States in October 1998, Pastrana declared 
that the fact that guerrillas and drug crops are found in the same 
general areas in Colombia might be more coincidental than 
deliberate.\31\ Joe Toft, former head of the U.S. Drug Enforcement 
Administration (DEA) office in Colombia from 1988 to 1994, would 
disagree: ``The rebels are in it for the money they get for providing 
security to the drug lords. The rebels are criminals, period.'' \32\ 
Nearly two-thirds of the $1 billion taken in each year by the FARC and 
ELN is derived from drug trafficking, and the remainder comes from 
activities like kidnapping, cattle rustling, and extortion. To its 
credit, the Clinton Administration is not buying Pastrana's argument. 
General Barry McCaffrey says that the FARC is ``heavily involved in 
protecting, transporting, and in some cases operating drug labs.'' \33\
---------------------------------------------------------------------------
    \31\ National Press Club, speech by Colombian President Andres 
Pastrana, October 30, 1998.
    \32\ Paul Reid, ``Colombia: Kaleidoscope of Violence,'' the Palm 
Beach Post, December 27, 1998, p. 1A.
    \33\ Ian Kemp, ``Military Leaders Are Replaced in Colombia,'' 
Jane's Defence Weekly, Vol. 30, No. 17 (August 19, 1998). See also 
Linda Robinson, Gordon Witkin, and Richard J. Newman, ``Is Colombia 
Lost to Rebels?'' U.S. News & World Report, May 11, 1998, p. 38.
---------------------------------------------------------------------------
    <bullet> The alternative crop development strategy is mere window 
dressing. A key element of ``Plan Colombia'' is a scheme to attract 
large-scale foreign aid to underwrite the cost of an alternative crop 
development program to substitute legal food crops for coca and opium. 
The rebels are demanding that repressive anti-drug measures--such as 
aerial spraying--be suspended and U.S. anti-drug resources used instead 
to finance these development efforts.
    However, Washington remains committed to aerial crop spraying, for 
which Congress approved $200 million in October 1998, compared with 
only $60 million earmarked for alternative crop development programs in 
Bolivia, Peru, and Colombia. The United Nations estimates that Colombia 
will need at least $1 billion for alternative crop development. Other 
estimates range as high as $5 billion just for a regional alternative 
development program in southern Colombia, with no guarantee of denting 
the illicit drug trade.
    The alternative development programs have reported some success in 
Bolivia and Peru, but any decline in drug cultivation usually has been 
offset by increased drug crop cultivation in areas outside the 
development zones. A large-scale effort in Colombia would have to 
target illicit drug cultivation across the entire nation, which would 
cost many billions of dollars. So far, the Inter-American Development 
Bank (IADB) pledged to contribute $1.6 billion to a fund to support the 
Colombian peace process. Part of this money would be used for 
alternative development. The IADB has already committed $90 million a 
year for a Colombian crop substitution effort called Planta. 
Additionally, the United Nations agreed to provide Colombia $80 million 
a year for such alternative development.
    These amounts are too insignificant to have a lasting impact on the 
drug trade, because no other crop is as profitable as the coca plant, 
which produces up to $2,500 a year for Colombian peasants compared with 
about $300 a year from legal crops. Moreover, coca and opium growers 
live in remote and inaccessible areas without the infrastructure to 
warehouse, transport, and market alternative food crops.
    <bullet> Peace with the rebels will not affect the illegal drug 
industry. Even if the rebels sign and respect a peace agreement, the 
drug trade will continue to flourish. Drug traffickers have the 
capability to defend themselves against the rebels, hire paramilitaries 
for protection, and fight the government to a standstill. Moreover, 
drug traffickers always have the option of moving operations to 
locations outside rebel-controlled areas and beyond the reach of police 
and military forces.
                setting u.s. colombia policy by default
    A White House official told a reporter for the Washington Post in 
December 1998 that Colombia ``poses a greater immediate threat (to 
America) than Bosnia did, yet it receives almost no attention. So 
policy is set by default.'' \34\ This is a startling admission. The 
Administration does not have a sound policy to deal with the growing 
political and security crisis presented by the turmoil and drug 
trafficking in Colombia. It is also alarming in light of President 
Clinton's decision to increase U.S. military aid to Colombia as part of 
a stepped-up strategy to fight the war on drugs. If the 
Administration's policy in Colombia is evolving more by reaction than 
by design, then the limits of U.S. military involvement in the 
Colombian conflict have not been determined.
---------------------------------------------------------------------------
    \34\ Douglas Farah, ``U.S. to Aid Colombian Military; Drug-Dealing 
Rebels Take Toll on Army,'' the Washington Post, December 27, 1998, p. 
A1.
---------------------------------------------------------------------------
    A Policy Shift. The Administration maintains that the United States 
will not get involved in Colombia's 34-year-old civil war. However, it 
has become increasingly difficult to separate Colombia's war on drugs 
from its war against the Marxist rebels. David Passage, the State 
Department's former Director of Andean Affairs, says that the United 
States could help the Colombian military regain control of the 
territory held by the rebels with ``a few dozen (American) military 
advisers and making a small investment.'' \35\
---------------------------------------------------------------------------
    \35\ Ibid., p. A8.
---------------------------------------------------------------------------
    Although the U.S. military's involvement in the war on drugs in 
Latin America has been growing since the late 1980s (see the Appendix), 
President Clinton's decision to increase military aid to Colombia 
represents a significant policy shift for his Administration.
    For example, from 1994 until 1998, the Clinton Administration's 
Colombia policy was one that:

  <bullet> Ignored the growing regional security threat posed by the 
        FARC and ELN rebels involved in drug trafficking and extortion;
  <bullet> Insisted that no linkages exist between drug traffickers and 
        rebels;
  <bullet> Withheld anti-drug assistance that would help the Colombian 
        National Police be more effective in drug interdiction while it 
        demanded that Colombia battle its illegal drug trade more 
        effectively;
  <bullet> Refused to help the Colombian military because of its poor 
        human rights record, which enabled the rebel insurgency to 
        grow; and
  <bullet> Abused the annual drug certification process in a failed 
        effort to unseat former President Ernesto Samper, who was 
        elected in 1994 with the help of more than $6 million in 
        contributions from drug traffickers.

    When the Medellin cocaine cartel was finally destroyed in December 
1993 following the death of its head, Pablo Escobar Gaviria, the 
Colombian government was in a good position to attack drug traffickers 
effectively. However, 1994 was a presidential election year in 
Colombia, and the Clinton Administration made little effort to 
encourage outgoing President Cesar Gaviria \36\ to maintain the 
pressure against drug traffickers by going after the Cali cocaine 
cartel, which at the time controlled over 80 percent of the global 
Colombian cocaine trade.
---------------------------------------------------------------------------
    \36\ Gaviria is currently Secretary General of the Organization of 
American States (OAS).
---------------------------------------------------------------------------
    How Decertification Backfired. The situation in Colombia started to 
deteriorate rapidly in mid-1994 with the election of Ernesto Samper, a 
member of the incumbent Liberal Party. Samper was absolved of concerns 
about his drug connections after a political trial in the Colombian 
congress, but the U.S. Administration repudiated him and sought 
unsuccessfully to force his resignation by imposing sanctions from 1995 
to 1998. These sanctions led to sharp reductions of U.S. aid, including 
anti-drug aid, which further weakened the Colombian National Police's 
fight against the drug traffickers. Moreover, from 1994 to 1998, 
Colombia's armed forces--and particularly its army--grew significantly 
weaker, partly as a result of the Clinton Administration's refusal to 
provide military aid to Colombia's military units if even one 
individual in the unit was suspected of abusing human rights. Samper's 
ties to the Cali drug traffickers also gave the FARC and ELN an excuse 
to declare his administration illegitimate and refuse to engage in 
talks.
    The Clinton Administration's campaign to oust Samper by 
decertifying Colombia backfired. First, the sanctions inflamed 
Colombian nationalism and favored his eventual absolution by the 
legislature. Second, they undermined the Clinton Administration's 
efforts to step up the fight against drug traffickers, despite the 
arrest of the Cali cocaine cartel's top kingpins in 1995. Third, they 
distracted U.S. policymakers from the regional security threat posed by 
the rapid expansion of Colombia's drug-financed insurgency. And, 
fourth, they caused a general deterioration of U.S.-Latin America 
relations, as Mexico and other countries in the region joined Colombia 
in publicly repudiating the drug certification process.
    The Thaw in Relations. The four-year chill in U.S.-Colombian 
relations started to thaw during Pastrana's official visit to 
Washington on October 27-30, 1998. President Clinton even proclaimed 
the Harvard-educated Pastrana's inauguration as ``a new beginning for 
Colombia,'' and promised that the U.S. would help to end the civil 
war.\37\ Pastrana hailed the arrival of ``a new era in relations 
between Colombia and the United States,'' \38\ and pledged to fight 
drug trafficking, resolve Colombia's civil war peacefully, halt the 
depredations of the paramilitary groups, and end human rights abuses 
committed by the Colombian army. The two heads of state signed a new 
bilateral ``Alliance Against Drugs,'' and President Clinton pledged his 
support for Pastrana's peace plan. Since Pastrana's inauguration, the 
Administration has increased anti-drug aid to Colombia by almost 300 
percent.
---------------------------------------------------------------------------
    \37\ ``Colombia's Pastrana, Clinton promise to fight drug 
trafficking,'' Agence France Presse, Washington, D.C., October 29, 
1998.
    \38\ George Gedda, ``Two Countries Agree to Expand Cooperation on 
Drugs,'' Associated Press, Washington, D.C., October 28, 1998.
---------------------------------------------------------------------------
    Behind the warm smiles and professions of friendship, however, the 
``new'' U.S.-Colombia relationship is tenuous. Washington has serious 
doubts about the viability of the peace plan, and it is concerned that 
the negotiations could halt U.S.-financed operations in southern 
Colombia to eradicate cocaine crops and destroy clandestine jungle 
laboratories. The Clinton Administration doubts the ability of the 
Colombian government to prevent the civil war from spiraling out of 
control if the peace process collapses. U.S. policymakers are also 
skeptical that the FARC and ELN are committed to peace.
    And yet, despite these reservations, when the Colombian government 
asked the Clinton Administration to meet secretly in Costa Rica with 
senior FARC representatives, the answer was yes. In mid-December 1998, 
Philip Chicola, a mid-level official with the State Department's office 
of Andean affairs, met secretly in San Jose, Costa Rica, with a small 
group of FARC leaders that included Luis Edgar Devia (Raul Reyes), the 
FARC's coordinator of international activities. Devia's role is similar 
to the one played by Sinn Fein's Gerry Adams in Ireland.
    The unprecedented meeting took place in the home of Alvaro Leyva, a 
former legislator and minister of the now-ruling Conservative Party, 
who is exiled in Costa Rica because he is wanted by the Colombian 
judicial authorities for his alleged ties to the Cali drug cartel. 
Although the Colombian government requested that the Clinton 
Administration meet with the FARC, it did not participate in the 
meeting. The FARC immediately embarrassed the Clinton Administration 
after the meeting by disclosing the secret meeting to Colombian news 
media. James P. Rubin of the State Department was forced to explain 
lamely that the Administration's intention had been ``to demonstrate 
our support for the Colombian peace process.'' \39\
---------------------------------------------------------------------------
    \39\ Associated Press, ``U.S. Met Colombian Rebels at Bogota's 
Request,'' the New York Times, January 5, 1999, p. A3.
---------------------------------------------------------------------------
                   needed: colombia policy by design
    In January 1999, the FARC announced that all U.S. military and law 
enforcement personnel in Colombia would be considered legitimate 
targets.\40\ If peace talks between the government and the rebels break 
down and U.S. military advisers are targeted, Congress must know how 
the Administration will react. Would President Clinton propose sending 
U.S. soldiers to Colombia to help keep the peace, as he has done in 
Bosnia, Haiti, Kosovo, and Somalia?
---------------------------------------------------------------------------
    \40\ Agence France Presse, ``Colombian Guerrillas Warn US Advisors 
Could Be Targets.''
---------------------------------------------------------------------------
    Because of America's escalating drug problem and its vital 
interests in Latin America, the United States must consider doing all 
that it can to help Colombia end its decades-old civil war with the 
Communist insurgents and battle Colombian drug traffickers effectively. 
However, before Congress endorses President Clinton's decision to 
increase U.S. military aid to Colombia, it should require the 
Administration to spell out in detail the goals it expects to achieve 
in the next two years. Congress should make certain that the 
Administration's decision to expand military aid will not eventually 
suck American soldiers into the maelstrom of Colombia's ongoing civil 
war.
    Congress should demand that the Administration explain the limits 
it will set on America's growing military involvement in Colombia. 
Congress should know how long the Administration plans to give military 
aid to the Colombian army, how much that aid can be expected to 
increase, what it will include, and whether there is a clear exit 
strategy. These are crucial details. Today, over 200 American soldiers 
are stationed in Colombia at any given moment, but this number will 
likely grow if the Administration increases U.S. military aid to the 
Colombian army.
    To design an effective Colombia policy, Congress should:

    <bullet> Initiate a thorough review of U.S. drug policy in Latin 
America. Congress is already moving in that direction. On March 3, 
1999, Representatives Benjamin A. Gilman (R-NY), Elton W. Gallegly (R-
CA), Dan Burton (R-IN), and John L. Mica (R-FL) agreed to seek a full 
investigation of the Bureau of International Narcotics and Law 
Enforcement by the State Department's Office of the Inspector General, 
to determine how U.S. anti-drug aid is being spent in Colombia. This is 
a good beginning, but congressional review of U.S. drug policy in Latin 
America should be expanded to include U.S. anti-drug activities in 
Mexico, the Caribbean, and Central and South America. Such a review 
undoubtedly would conclude that from the U.S.-Mexico border to Tierra 
del Fuego, U.S. drug policy is a shambles.

    The Clinton Administration has been unable to reduce the 
cultivation and production of illicit narcotics in Colombia, which has 
turned into an increasingly violent narcostate teetering on the brink 
of collapse. In Mexico, the Administration's much-vaunted bilateral 
cooperation in the war on drugs has become an annual exercise in 
political posturing designed to hide the fact that drug trafficking and 
related corruption continue to grow unchecked. In Central America and 
the Caribbean region, which the Clinton Administration largely ignored 
since 1993, drug traffickers are spreading their distribution networks 
relentlessly, overwhelming weak legal and political institutions in 
countries that have no hope of obtaining trading parity through the 
North American Free Trade Agreement (NAFTA). Without such trading 
parity, governments in Central America and the Caribbean cannot 
effectively attack the widespread poverty and lack of economic 
development that drug traffickers exploit. And in South America, drug 
traffickers have opened new markets and routes for shipping cocaine to 
Europe and Asia, partly to escape U.S. anti-drug monitoring and 
interdiction efforts in the Andean and Caribbean regions.

    <bullet> Abolish the annual drug certification process. Congress 
should take a hard look at the annual drug certification process that 
has become a major cause of growing tension and discord between the 
United States and Latin American countries.\41\ Many policymakers 
support the yearly drug certification ritual as a means for continuing 
to apply pressure on the Administration and the governments of major 
drug producing or drug transit countries.
---------------------------------------------------------------------------
    \41\ The U.S. Anti-Drug Act of 1986 created the annual drug 
certification process that requires the U.S. President to report by 
March 1 the countries that cooperate with America's war on drugs and 
those that are not cooperating. Congress created the drug certification 
process to monitor the results of the tens of billions of dollars the 
United States has spent in the past three decades chasing elusive 
international drug traffickers. The certification process was also 
intended to serve as a carrot-and-stick policy tool for keeping U.S. 
pressure on major drug-producing countries like Colombia. For example, 
anything less than a full certification--such as a national interest 
waiver or outright decertification--would trigger automatic cutbacks or 
suspensions in U.S. aid.

    The Administration does not certify countries like Colombia and 
Mexico on objective benchmark criteria, but rather on the basis of U.S. 
political considerations. From 1994 to 1998, the Administration 
dictated that Colombia should be sanctioned on four consecutive 
occasions. However, Mexico was repeatedly certified during this period 
as a fully cooperating ally in the U.S. war on drugs, despite clear and 
compelling evidence that drugs continue to flood into the United States 
through Mexico, where powerful drug cartels are gaining increased 
control of political and legal institutions. This double standard 
outraged Latin Americans and produced a region-wide consensus that the 
U.S. drug certification process is interventionist and imperialist.
    The drug certification process also compresses the drug policy 
debate in Congress to only three or four weeks each year. Congress 
should abolish the drug certification process and focus instead on 
working with the Administration to develop and implement an effective 
anti-drug policy in countries like Colombia and Mexico.

    <bullet> Set clear limits on U.S. military aid to Colombia. The 
Administration should specify whether Colombia only will receive U.S. 
military aid during the last two years of this Administration or if the 
military aid will be extended over a longer period. In a best case 
scenario, according to congressional defense analysts, it will take two 
years to train and equip professional Colombian soldiers, although a 
complete overhaul and modernization of Colombia's armed forces could 
require up to a decade of sustained effort. Strict limits should be 
imposed on sending U.S. soldiers to Colombia. Sending additional 
military advisers to Colombia should not be a backdoor attempt to 
increase the number of U.S. soldiers in Colombia, especially if the 
FARC and ELN continue their war against the government and target U.S. 
advisers. The crisis in Colombia is a clear threat to regional 
stability, but it is a crisis that can be solved only by Colombians. 
The United States should help the Colombian government end the civil 
war and battle drug traffickers, but U.S. military personnel should 
not, under any circumstances, take part directly in any armed 
confrontations against the rebels, drug traffickers, or paramilitary 
groups.
    <bullet> Manage the insurgency as a law enforcement problem. 
Pastrana made a mistake when he conferred political legitimacy on the 
FARC and ELN and portrayed their insurgency as not linked to drug 
trafficking. The Clinton Administration suffered a greater lapse 
ofjudgement when it met secretly with FARC officials last December. The 
FARC and ELN are criminals, who care most about the profits they earn 
from drug trafficking, kidnapping, extortion, and cattle rustling. 
Moreover, in October 1997, Secretary of State Madeleine Albright 
announced that the FARC had been added to the State Department's list 
of terrorist organizations--and U.S. policy has long been that America 
does not negotiate with terrorists. Instead of supporting Pastrana's 
decision to grant these rebels political status, the Administration 
should encourage Pastrana to withdraw his government's political 
recognition of the rebels.
    <bullet> Implement a serious anti-drug aid program. Washington has 
failed to provide the Colombian authorities with the resources they 
need to fight drug traffickers effectively. The bulk of the U.S. anti-
drug aid in Colombia is earmarked for the destruction of drug crops by 
aerial spraying, yet the Colombian National Police is short of 
helicopters to transport anti-drug police units and sustain their 
operations in Colombia's drug producing regions. Its 70 helicopters, 
including many Vietnam-vintage UH-1 (Huey) helicopters, are between 35 
and 40 years old and cannot be operated safely at the altitudes where 
most coca plants and opium poppies are cultivated.

    In October 1998, Congress approved a $289 million anti-drug aid 
package for Colombia, which required the Clinton Administration to 
certify that the FARC-controlled demilitarized zone was not being used 
as a haven for drug traffickers and illegal crop cultivation. This aid 
package, consisting almost entirely of helicopters and other counter-
narcotics assistance, was a step in the right direction. However, 
congressional leaders have already warned that the aid could be 
suspended if the Administration verifies that the Pastrana government 
is allowing drug traffickers to operate unchallenged inside the 
demilitarized one.
    It would be a mistake for Congress or the Administration to hold up 
the anti-drug aid. Suspending the aid will only weaken the anti-drug 
effort and strengthen the rebels and drug traffickers. Instead of 
threatening Colombia with sanctions, the Administration should increase 
anti-drug assistance to bolster Colombia's efforts to fight the illegal 
drug trade.

    <bullet> Agree to help train and equip a professional Colombian 
army. The Colombian army has about 125,000 soldiers, of which 55,000 
are committed to protecting urban centers, oil fields, and other key 
installations. At present, only about 30,000 soldiers are being used 
for counter-insurgency operations. Because it is so thinly stretched, 
the army has established small company and platoon-sized posts wherever 
possible, but this enabled the rebels to achieve local numerical 
superiority, a situation that is exacerbated by the lack of equipment 
for small Colombian units. The Colombian military has only 20 
operational helicopters and three AC-47 gun-ships, and part of its 
armored inventory dates back to 1943. This effectively renders the army 
as a military constabulary with only internal security functions. 
Typically, its soldiers go into the rebels' zones carrying only 80 
rounds of ammunition (compared with 250 rounds per U.S. soldier). There 
is no hope of making this army a professional army in just six months. 
In a best-case scenario, it will take at least two years and cost U.S. 
taxpayers billions of dollars. Colombia's Defense Ministry has already 
asked the Clinton Administration to underwrite the cost of a $1.5 
billion plan to train and equip professional counter-insurgency units.
    <bullet> Adopt a multilateral approach to manage Colombia's crisis. 
President Clinton's decision to increase U.S. military aid to Colombia 
may prove unwise if the Administration fails to win the support of the 
Latin American countries that share lengthy and mostly undeveloped 
borders with Colombia. The perception that the United States is acting 
unilaterally would undermine the success of the Administration's 
efforts. Such countries include Brazil, Ecuador, Panama, Peru, and 
Venezuela. The United States has vital commercial interests in assuring 
the continued security of the Panama Canal, and in Venezuela it has 
vital energy interests in which U.S. oil firms have invested many 
billions of dollars. The United States also has a compelling interest 
in working closely with Brazil to contain the spread of Colombian 
rebels or drug traffickers in its northern Amazon region.

    Similarly, Colombia's neighbors share an interest in keeping the 
Colombian civil crisis confined within Colombia's borders. Brazil, 
Peru, and Venezuela recently began increasing their military presence 
along their borders with Colombia and officially wamed the Colombian 
government and rebels to keep their differences strictly inside 
Colombia. Since 1994, however, the Clinton Administration's misuse of 
the drug certification process has strained relations between the 
United States and the Latin American countries that annually appear on 
the State Department's International Narcotics Control Strategy Report.
    The Administration should work through the Organization of American 
States (OAS) to build hemispheric support to rid Colombia of drug 
traffickers and the Marxist narco-rebels. The Colombian civil war, with 
its drug underpinnings, threatens not only the security interests of 
the United States, but also the security and economic stability of many 
Latin American democracies. In particular, the OAS should develop and 
implement a program using Latin American human rights observers to 
monitor and report on the activities of all groups in conflict in 
Colombia, including the armed forces, Marxist rebels, and paramilitary 
groups. However, to become involved credibly in a multilateral process 
aimed at preventing the balkanization of Colombia, the Secretary 
General of the OAS--former Colombian President Cesar Gaviria--should be 
replaced by someone from a different Latin American country in order to 
assure all parties of the organization's neutrality.
                               conclusion
    Colombia is on the verge of becoming a ``lose-lose'' situation. If 
President Pastrana accepts the demands of the FARC and ELN groups for 
political and territorial autonomy, Colombia would start to break apart 
into Balkan-type factions. Paramilitary violence would escalate 
rapidly, and regional stability would be threatened. If the Pastrana 
peace talks fail, which appears increasingly likely, Colombia will sink 
deeper into a vortex of violence that could spill into neighboring 
countries, endangering the region's stability. The country is no less 
than a tinderbox awaiting only a careless spark to explode in flames.
    It is clearly in America's national interest to help the Pastrana 
government end Colombia's decades-old civil turbulence and eradicate 
the illegal drug trade. But the Clinton Administration should tread 
cautiously in escalating the U.S. military's involvement in the 
Colombian narco-insurgency. Before it can fight the rebels effectively, 
the Colombian army needs to be modernized, professionally trained, and 
reequipped with the arms and other equipment needed to achieve tactical 
and strategic mobility on the battlefield. This could take several 
years of sustained effort involving extensive U.S. training of 
Colombian military units, and could cost Americans billions of tax 
dollars.
    The Administration's new Colombia policy should include a specific 
timetable for providing military aid, clear objectives and transparent 
methods for measuring the resulting gains (or losses) from that aid, 
and strict limitations on the extent of America's escalating military 
involvement in Colombia. It also is vitally important that the 
Administration's new Colombia policy detail contingency plans to 
safeguard the lives and security of U.S. military personnel in Colombia 
if Pastrana's peace talks fail and the violence escalates dramatically.
    Above all, the Clinton Administration must not lose sight of the 
fact that the Colombian conflict between the government, rebels, drug 
traffickers, and paramilitaries is fundamentally a Colombian problem 
that Colombians must resolve. If the limits of U.S. military 
involvement in Colombia are not spelled out clearly at the outset, the 
risk is great that significant numbers of U.S. soldiers would be 
swallowed up by the Colombian quagmire. President Clinton would be wise 
to remember that America's involvement in the Vietnam War--which he 
opposed as a university student--began with a few dozen U.S. military 
advisers and a small investment.

                             [Appendix II]

    At the end of the 1980s the Communist insurgency was believed by 
many to be dying in Colombia. A decade later in 1999, Colombian 
President Andres Pastrana is suing for peace at any cost, with drug-
financed insurgency that wields the upper hand politically and, 
increasingly, in military terms as well. Moreover, the Colombian civil 
war increasingly threatens the stability of a region that includes 
Panama, Venezuela, Ecuador, Peru and Brazil. How did this happen?
    1. The U.S. Administration has contributed to the escalating crisis 
in Colombia. The U.S. government has known since at least 1992 of the 
growing involvement of the FARC and ELN in Colombia's illegal drug 
trade, but chose to ignore it. From January 1993 until October 1998, 
the U.S. Department of State took the position that the Colombian 
insurgency and the Colombian drug trade were two different and 
unrelated problems. This position was based mainly on the 
Administration's concerns about the Colombian military's poor human 
rights record. The Clinton Administration's decision to end U.S. 
military aid to Colombia in 1993, and sanction Colombia four times from 
1995 to 1998 in the annual drug certification process, weakened the 
police-led war on drugs in Colombia and implicitly helped the expansion 
of the FARC and ELN. At a more direct level, since 1993 the U.S. 
Department of State has fundamentally mismanaged the distribution to 
Colombia of anti-drug funds and equipment, routinely holding up anti-
drug aid approved by Congress. Whatever anti-drug aid offered to 
Colombia by the United States never arrives in time, and is never 
enough. While continuously demanding better anti-drug results from 
Colombia, the U.S. Administration has consistently failed to provide 
Colombia with sufficient financial and material anti-drug aid. For 
example, most of the helicopters provided to the Colombian National 
Police (CNP) by the U.S. government are aged clunkers between 35 and 40 
years old without the altitude ceiling where opium poppies are grown.
    2. The Clinton Administration has been unclear about why U.S. 
military aid to Colombia is being increased. In October 1998 President 
Clinton said the increased U.S. military aid would be used to fight not 
guerrillas, but drug traffickers. However, in March 1999 U.S. Secretary 
of Defense Cohen stated that the purpose of increasing U.S. military 
aid to Colombia was to ``enable the Colombian army to face the 
guerrillas more efficiently.'' From Haiti to Kosovo, this is not the 
first time that the Clinton Administration has issued contradictory 
statements about the purpose of policy initiatives involving any use of 
military force.
    3. The Pentagon has not been engaged in Colombia, and does not want 
to become engaged. The U.S. Department of Defense (DOD) does not have a 
strong interest in this issue for budgetary and doctrinal reasons, and 
in the Office of the Secretary of Defense (OSD) for political reasons. 
America's armed forces have become seriously over-extended as a result 
of large budget cutbacks, and the numerous international humanitarian 
and peacekeeping deployments ordered by President Clinton as he 
stumbles from one foreign policy crisis to another.
    4. Outside the U.S. Southern Command (Southcom), there is very 
little interest or support at the Pentagon for greater military 
engagement with Colombia if that means a bigger slice of the Pentagon's 
budget has to be earmarked to Colombia from other needs. Doctrinally, 
U.S. defense strategists do not see any security threats in Latin 
America that would endanger the territorial integrity of the United 
States. President Clinton and Republican leaders agree that drugs 
threaten U.S. national security and have obliged the U.S. military to 
become increasingly involved in anti-drug operations. However, in terms 
of U.S. strategic military doctrine Latin America is little more than a 
backwater, especially ten years after the end of the Cold War with the 
now-defunct Soviet Union. There are no Latin America war scenarios at 
the Pentagon.
    5. The drug trade is flourishing within the demilitarized zone. 
Illegal flights by drug traffickers are operating unmolested out of the 
DMZ, through what is called the Colombia-Ecuador-Brazil air bridge. 
Illegal drug flights from the DMZ to Cuba are also increasing. 
Meanwhile, the U.S. military presence in the region is being scaled 
back. AWACS support for anti-drug operations has all but vanished over 
Colombia as DOD has diverted assets to Kosovo. Moreover, on May 1, 1999 
Howard Air Force Base in Panama will be closed down. Most anti-drug 
flights originate from Howard. The loss of this forward base will 
severely curtail U.S. counter-drug operations in the region.
    6. The stability of Panama is at high risk. The Revolutionary Armed 
Forces of Colombia (FARC) are expanding their presence in the Darien 
region in southern Panama. The end of the U.S. military presence on 
December 31, 1999 will leave Panama unprotected. The Panamanian 
government is unprepared to manage the situation by itself.

    Senator Coverdell. I appreciate your comments, Mr. Sweeney.
    Let me try to get a general question versus a country-
specific. We may come to that, but I would like to begin just 
in the context of sorting out a broader policy.
    I may ramble here for a minute, but when we accomplished 
the framework for democratic institutions in the United States, 
the population was the highest paid work force in the world 
already. They could all read because of the study of the Bible, 
and so they were a very unique population upon which you could 
build a framework of the order of law. Conversely, as we have 
seen democratic institutions find themselves throughout the 
hemisphere, they are not confronted with similar populations.
    Now, if we set the narcotic or institution of criminal 
activity the Ambassador has alluded to beyond narcotics aside, 
you still would have been dealing with the very fledgling 
institutions of enforcement, judiciary, et cetera. And with 
that aside, clearly the interaction of free trade and commerce 
and activity, along with reasonable support from the 
international community and here, I think these democratic 
governments by their nature would have led to a progressively 
improving infrastructure. It still would have taken years to 
build.
    To use I think one of the better examples, not without 
problems, is some of the work that has been accomplished in 
Nicaragua among the judiciary, the human rights issues, et 
cetera as they endeavor to come from almost a still shot for 20 
years prior to the new government.
    Now we impose this very far-reaching, powerful, well-
financed, sophisticated management, best assets surpass many of 
the hemisphere's armed forces, and we overlay everything we 
have been talking about with this ingredient. To me the 
security question has become the overriding question in terms 
of the nurturing of these democracies.
    I think, Mr. Secretary, you alluded to the trade and that 
needs more impetus, more attention, et cetera. I think it is 
coming. The ups and downs of our own politics and 
administrations here either speed up, slow down, but I think 
the trend line will continue to show that commerce and 
integration of trade activity is going to continue.
    So, as I look out across the hemisphere, it is the threat 
you alluded to, Mr. Ambassador, that is the most troubling to 
me, and for the life of me, I cannot, given our approach to 
sovereign rights--and you look at the infrastructure under 
there that was just beginning, that seems to me to be a very 
dark problem that I have not heard anybody get a fix on.
    So, I would like each of you to--well, one, if you disagree 
that that is not the center of the stalemate, say so and tell 
me what is. If it is, how in the world do we get at it?
    I, just as an anecdote, met with General Serrano of the 
Colombian police force I guess within the last 2 weeks. What a 
daunting task. You kind of wonder where his perseverance comes 
from. But I did not leave the meeting very comforted not 
because of what he was endeavoring to do, but it just seemed 
almost an interminable and daunting task.
    I will stop with that. We will go in the same order. Mr. 
Secretary, is that right? If that is wrong, where is the 
fulcrum of our problem? And your general comments.
    Mr. Abrams. This is a very difficult and complicated 
question you have posed.
    I guess I would say that I think that security is not the 
only central issue--security/drugs. There are others. One of 
them, the difficulty in some countries of building those 
institutions from the ground up anyway. You would be having, 
for example, in Haiti a good deal of trouble without drugs. No 
question about that.
    Senator Coverdell. And I was trying to make that point, 
that even if you removed everything, it still would have been a 
daunting task that would have taken years and years and years.
    Mr. Abrams. I guess I would say, second, another big 
problem is there are people in positions of power in the region 
who are very much opposed or seem to be opposed to the 
achievement of this model of democracy and rule of law. 
Obviously, Fidel Castro is at the top of that list. There are 
many others. And we now debate, for example, as Mr. Sweeney 
said this morning, where is President Chavez on that spectrum?
    But security--and this was in Ambassador Einaudi's 
testimony and I think very rightly--is critical. So, what can 
we do?
    I think there are some things we can do. How can I put 
this? It is not just that we are pushing the supply of 
security. There is a demand for security on the Latin and 
Caribbean side, and to some extent, we are not meeting it. That 
is, I think if we were willing to provide more help for police 
and military training, a number of countries in the region 
would be happy to accept that help.
    I think we need to recognize--and to some extent we do--
there are countries that cannot do it. It is one thing to say, 
well, you know, maybe we can offer a little bit of training to 
Brazil, but what about Grenada? What about Dominica? What about 
St. Vincent? These are countries which do not have the 
resources.
    Now, we are dealing with them. We have agreements with a 
number of Caribbean countries in which they permit us to patrol 
the waters around their country, and in a sense they are 
sacrificing a bit of their sovereignty in order to gain a bit 
more security. And we should continue with that kind of 
arrangement because they cannot do it. There is no possible way 
they are going to be able to get the resources the drug 
traffickers have.
    But I think in the case of Colombia, we are going to need 
to make a decision perhaps a little bit down the road, 6 months 
from now, how deeply involved we want to be. It is going to be 
a very tough question because either we are going to have to 
decide that we will just leave the Colombians to stew in that, 
or we are going to have to take the risks of joining them in 
what may be a very difficult struggle against the guerrillas.
    Now, we can hope to avoid that. Maybe the peace 
negotiations that have just restarted will make some progress. 
Maybe it will be possible to do better against the drug 
traffickers without getting more directly involved. But I think 
that is an issue.
    We are now directly involved throughout the Caribbean, 
naval and Coast Guard forces and to some extent air force. That 
I think is the key question we are going to have to ask about 
Colombia. How involved do we wish to be and are we willing to 
be if the Colombians are willing to accept more help?
    Senator Coverdell. This benign neglect that has been 
referred to in the Clinton administration--would you say that 
with some exceptions that this has been a problem for a long 
time in the United States? We really have not paid enough 
attention to the hemisphere really anywhere along the line with 
some few exceptions.
    Mr. Abrams. Yes. We have tended to react to crises. James 
Reston of the New York Times once said Americans will do 
anything for Latin America except read about it. I think for 
long periods, there has been a tremendous amount of 
inattention. And when something happens, Castro takes over 
Cuba, or the Sandinistas take over Nicaragua, there is a huge 
reaction for a few years and then it ebbs away. Other things 
come to the front page, and we do not pay the attention we 
should.
    Senator Coverdell. Ambassador.
    Ambassador Einaudi. Thank you, sir.
    I guess that my answer would be do not underestimate 
people, do not underestimate the military, and do not 
underestimate our neighbors, even the smallest countries. And 
let me give you a couple of examples and then get to my bottom 
line.
    I remember the Nicaraguan playwright and poet, Pablo 
Antonio Cuadra, reacting with real outrage when some visiting 
Europeans commented that it really did not matter that the 
Nicaraguans did not have much freedom under the revolutionary 
Sandinista regime because everybody knew that poor people were 
not capable of appreciating or using freedom.
    I think that those Europeans were underestimating the 
Nicaraguans and I think that in fact democracy, if one looks at 
its different forms, can be practiced by poor people in their 
communities quite as much as anybody else.
    Do not underestimate the military. I said in my written 
testimony that the military often gets a bum rap in discussions 
with democracy because everybody thinks that is where the 
dictators come from. The dictators come from there. They are 
the ones that use force, et cetera, et cetera, et cetera. In my 
experience, whatever the past, over the past most recent 10 
years, military leaders have been looking for civilian 
guidance, and one of the striking things in the inter-American 
system is that we have an Inter-American Defense Board that 
does not come clearly under political authority. And it has 
been the military that are asking for that, to match the 
gradual democratization and constitutional structures, that 
progress has been taking place in their countries.
    I think that again, a lot of people were surprised that 
Peru and Ecuador made peace, and one of the reasons they were 
surprised that the military in both countries would oppose it. 
In fact, when given clear authoritative directions, the 
military stood at attention and did what was in the national 
interest and what they were being told to do by their 
constituted authorities. So, I think we do not have to worry or 
underestimate the military.
    I agree with what has been said about some of these small 
places. But what has been fascinating to me is that they have 
been showing the capacity to organize together, to come 
together. The eastern Caribbean States have managed to come 
together to pool resources and to help each other at moments of 
crisis.
    Part of the reason why the interruption of government in 
Paraguay has not worked has been that the neighbors, the 
immediate neighbors, the countries of MERCOSUR, have banded 
together to work to support things.
    What I think is needed most of all here--and I do not want 
to sound terribly Pollyanna-ish because what I am really saying 
is, look, these people can do it. What we need is the right 
framework. We then need to pay attention in a consistent 
fashion and be patient and not expect overnight results. The 
right framework is democracy and the rule of law because it 
guarantees participation and it is a self-regulating framework 
in that when you have got freedom, you can always correct 
abuses and errors.
    Pay attention. You asked Elliott Abrams the followup 
question on that. I think the problem is not a problem of the 
Clinton administration. I think one should give President 
Clinton his due. He has attempted to be supportive on Central 
America. I hope the Congress will complete the special 
appropriation there.
    I never had difficulty in getting his support at critical 
moments, just as I never had difficulty, let it be said, in 
getting the support of the Senate Foreign Relations Committee 
and the House International Affairs Committee at key moments of 
the Peru-Ecuador problem.
    The issue, as Elliott was saying, is not moments of crisis, 
it is sustained attention and caring that is justified by the 
very special relationship--it is a horrible word that goes back 
to the Nixon times, I admit, but the special relationship that 
the United States and the other countries of this hemisphere 
have and share together, sharing the same hemisphere. Once we 
get the right framework and we pay attention, then we have to 
be patient because none of these organizations, certainly not 
the OAS, and with all due respect, sometimes not even the U.S. 
Congress is going to solve everything overnight.
    Senator Coverdell. I am just astounded you would make an 
assertion like that.
    I want to pursue that just a bit further because I think I 
completely agree with what we should not underestimate. What I 
am trying to do is size, though, what we should estimate from 
this criminal threat and their ability to destabilize what 
would have been the natural tendencies of the people, their 
institutions, the military.
    Another anecdote. I remember meeting with the defense 
minister in Guatemala immediately following the signing of the 
peace accord, and he was exceedingly proud that he would be the 
last military secretary, whatever, of defense, minister of 
defense in his country. It would revert, following him, to 
civilian rule, and he was exceedingly proud of it.
    But at least it is my observation that there is a 
possibility of being overwhelmed. You have alluded to it and I 
would like you to--if that is not a warranted concern, then I 
am relieved. If it is a warranted concern, I am troubled and 
struggling with exactly how we get at that.
    Ambassador Einaudi. It is a warranted concern, sir, and I 
will respond with two things.
    One is brand new. It is not in my statement, but I think it 
is the truth. Unfortunately, we are helping the gangs in these 
neighboring countries by the way in which we are deporting 
aliens or persons of foreign origin who have committed crimes 
under the latest Immigration and Naturalization Act. If you 
look at the number of people that we have deported to the 
Dominican Republic or to El Salvador, you will discover that we 
have sent them well-trained, street-smart criminals in numbers 
that match local police forces. So, I do not have a clear 
solution, but I want to flag it because it is something that 
our neighbors are suffering and they are not very comfortable 
about the way it is working. At least we seem to be giving 
advance notice now, but there are major problems there.
    But let us do something positive, and this is the second 
point. It is what I ran over in my testimony. All right, we are 
going to send them street-smart criminals. Let us do something 
about helping to train security forces within the right 
framework. Let us get an inter-American security system that is 
modern and is based on all of the right caveats, but that 
ultimately when you are through and done with it, it makes sure 
that under civilian authority, you have military guys that are 
capable of being trained, of exchanging experiences, and of 
learning to interoperate with each other.
    I am not talking, let it be clear, to committing U.S. 
troops to Colombia or something like that. What I am saying is 
to create some sort of a regional framework--it would have to 
be negotiated and worked out--that does not allow these gangs 
to do what they have been doing. The narco-traffickers--as soon 
as we or another country together work up resistance to their 
activities, they shift them and they go elsewhere. What we need 
to do is develop a common, multilateral approach that will meet 
them there. They cannot shift, and that gives people the 
professionalism and the competence and the ability to work.
    There is an enormous amount to be done, sir, in the sharing 
of intelligence. It has got nothing to do with sending 
Americans abroad. It has to do with working out ways in which 
we can help improve the intelligence of our governments and of 
civilian-led professional police, not just military, to respond 
to these gangs. And I think that there are many things that can 
be done in that area.
    And I am sorry. I am running on too long.
    Senator Coverdell. No, no, no. I most appreciate it. I 
might come back to that in a moment, but I do want to give Mr. 
Sweeney a chance.
    Mr. Sweeney. Well, thank you, Senator.
    I find it difficult to believe, from the 33 years I lived 
and worked in Latin America, that the United States is 
exporting street-smart Central Americans back to their home 
countries so they can engage in crime down there. I think many, 
if not most, of the people we are deporting for criminal 
activities entered this country illegally in the first place 
and many of them had prior criminal backgrounds. So, I do take 
issue with Ambassador Einaudi on that. I do not think the 
United States is responsible for sending street-smart trained 
criminals down to Latin America to make things more miserable 
for the Latin Americans.
    I think the threat of organized crime and drug trafficking 
in Latin America could conceivably undermine everything the 
United States is trying to achieve in the region. I think that 
if we want to get ahead in Latin America, one of our basic 
foundations of Latin America policy must be trade integration 
with the region. On this I do fault the Clinton administration. 
There has been no effort by this administration, since December 
20, 1994 when the Mexican peso collapsed, to move the trade 
issue forward in Latin America. As a result, we have lost 
influence, we have lost leadership in the region, we have 
become marginal players in the trade process, and increasingly 
countries down there are not really trying to cooperate with 
us.
    I think we underestimated the extent of the threat that 
faced us in the region after the cold war in terms of organized 
crime and drug trafficking, and I think we overestimated the 
region's capacity to reform its institutions, particularly the 
judicial system, the courts, and public administration.
    I want to close with this final point. Most of the policy 
reforms that have been enacted throughout Latin America in the 
last 10 years grew out of the so-called Washington Consensus 
more than a decade ago. You may recall, sir, when it was argued 
here in Washington that if we applied macroeconomic free market 
policies in Latin America, the region would start to achieve 
its potential and the political reforms would follow. I think 
we underestimated how much resistance there is in the region to 
the kinds of institutional and political reforms that are still 
needed to establish a functional, transparent, capitalist 
democracy type of system in Latin America.
    And that was recognized last year, by the way, by the World 
Bank, which 10 years after the Washington Consensus formula 
came out, they came out with a study saying institutions do 
matter and they identified the judicial system, financial 
system, public administration, and education as the four major 
institutions that need reform. If you look today at the 
financial system in Latin America, the judicial system and the 
system of public administration in country after country, that 
is precisely where you find the nexus of corruption and 
organized crime undermining the democratic institutions, 
fragile as they are.
    Senator Coverdell. How do you take to the Ambassador's 
concept of an inter-American security system?
    Mr. Sweeney. I agree fully. I think one of the problems 
with U.S. policy in Latin America has been that when President 
Bush articulated his Enterprise for the Americas initiative in 
June 1990, he talked about trade, not aid. But the whole 
security dimension was left off the agenda. The present 
administration has not built upon that. We have seen no trade 
expansion and very little progress in terms of security 
arrangements.
    Nonetheless, even if we had a hemispheric-wide security 
arrangement in place, it would be utopian for us to believe 
that we are going to be eradicate completely organized crime in 
drug trafficking in Latin America. Drugs, like the sex trade, 
like alcohol, like gambling, are a human vice crime. They have 
been with us for centuries and they always will be with us. But 
we know here in the United States we cannot eradicate it, but 
we also know that we must have transparent judicial and law 
enforcement institutions capable of at least achieving a degree 
of control which is acceptable for society. That is a goal we 
should seek in Latin America, and to get there, it is going to 
take a long time and it is going to take a lot of work building 
up these institutions.
    But we are not engaged right now. We are not there. We need 
to get back into the game. We need to put trade back on the 
agenda. We need to take the leadership in pushing for a 
different hemispheric security arrangement. I know there is a 
lot of concern about this in military circles that deal with 
Latin America. They feel that is a big vacuum in our policy 
toward the region. But if it is not addressed at the highest 
levels by our congressional leaders and, most importantly, by 
the President of our country, the administration, we are not 
going to get there.
    Mr. Abrams. Mr. Chairman, if I could just add one note to 
this, on the security side that you are raising.
    Senator Coverdell. It is good that you are raising the 
question because I was just about to raise one with you. So, 
you go ahead.
    Mr. Abrams. May I?
    Senator Coverdell. Yes, please.
    Mr. Abrams. I would just raise the question of whether at 
this moment, at which we perhaps should be doing more to 
address the security problem and particularly the drug side of 
it, we are diminishing our ability to do so because of Panama. 
Now, I am not suggesting that we should now insist on 
maintaining bases in Panama if the Panamanians do not want us. 
But our ability to operate in the region depends on having 
bases. Yes, you can do it from Florida, but the Pentagon has 
data on how much harder it is if, for example, we do not have 
Howard Air Base.
    Now, maybe there are places in the region that we could use 
as substitutes, and I know that we are talking and negotiating. 
But it would be tragic, if at a moment at which perhaps there 
is a consensus that we may need to do more, it turns out that 
we are able to do less.
    Senator Coverdell. Well, I would expand upon that in that 
the--with regard to security, almost every institution that in 
the interim, while we do not have an inter-American security 
system--in the interim have the principal responsibility for 
protecting us, which as a secondary effect protects others--
almost all of those assets are being reduced. The Coast Guard, 
Customs, DEA are all shrinking at the moment. Now, that has not 
happened because it has not been ratified by the Congress. I do 
not think it will be. But those are the kinds of proposals that 
you are facing.
    I was going to ask you, Mr. Secretary, in this committee we 
have been discussing a--we have used the word ``alliance'' 
instead of inter-American security system. That has been being 
bandied around here for some time. Some proponents, my good 
friend from Connecticut, see it as a substitute for 
certification as a general process. Others see it more in the 
context I think that you have described it, Mr. Ambassador.
    I have the distinct view our own State Department is one of 
the principal hurdles. There has not been a coming forward 
around this idea. It is almost as if it would open up a threat, 
intelligence which I suspect is a real problem, but also a 
platform for which to assert and challenge and the like.
    I was wondering if you agreed with that, have seen any 
evidence of it. Having been in the State Department, do you 
think that is a reasonable concern that they would have with 
regard to developing an inter-American security platform?
    Mr. Abrams. I do not think it is a particularly compelling 
concern. Some of the problems you could eliminate by being 
vigilant as you set the system up. And the other thing is that 
if NATO is a system of countries in which we are essentially 
dominant, although it includes nations like Britain, France, 
and Germany, we are going to be pretty dominant in any such 
system that is set up in the Western Hemisphere, as we have 
always been, for example, in the OAS and the Inter-American 
Bank.
    So, I think it is a very difficult process. It will be if 
we decide to go that route. But I do not think that it presents 
really those kinds of dangers to us.
    And I think it presents us with great opportunities because 
it is true, I think if you look back, that every year, as we 
get to the point of almost certifying or decertifying 
Colombia--it has been true over the past 10 years--they do 
things. Then they say, ``we did not do it because of 
certification.'' It was just a coincidence I guess that they 
did it the week before the vote.
    Nevertheless, there is something wrong with that basic 
posture. The notion that the country which is the market for 
the drugs and consuming the drugs sits in judgment on much 
poorer countries having much trouble, fighting the war on the 
front line against the drug traffickers--the notion that our 
best possible position, our most helpful position is to sit in 
judgment and issue condemnations, rather than achieving a kind 
of better alliance to fight this scourge, just seems to me not 
as good a solution as we can reach.
    Mr. Sweeney. May I add to that?
    Senator Coverdell. I am going to come right down the line 
again. Ambassador, do you want to comment on that question?
    Ambassador Einaudi. Let me try to be succinct. It seems to 
me that the State people from my memory are not overly 
enthusiastic about inter-American security forces or 
cooperation in part out of the traditional interagency battles 
that seem to dominate life in Washington, in part because they 
are correctly aware that a large number of Latin American 
governments would react as though this gave them a great 
headache. This is partially because of past histories of 
intervention, partially because when countries are cooperating 
with us or want to cooperate with us on economic and trade 
issues, the last thing they want to appear is as though they 
are becoming our puppets on the security side and working with 
us. And there the disproportion of American weight is enormous, 
and it does create major problems politically in negotiating 
the architecture which is what I hope that we will try to do.
    That probably means that we are going to need to include in 
the negotiation, if we are going to take it seriously--and I 
think we must--some questions that will make clear that what we 
are looking for is not some sort of new jumping off point for 
American interventions or military action in South America. In 
that sense, it could turn out that the fact that we are 
removing all of our forces from Panama this year might actually 
suggest, even to our critics, that we are willing to modernize 
and look for new modern relationships. And it could well be 
that something can be negotiated if it is clear that that is 
our position.
    It seems to me that the major initial stress should not be 
on force deployments. That is not the issue. The issue should 
be on education, the kinds of things we have in the Inter-
American Defense College. We have a Center for Hemispheric 
Defense Studies. We have a School of the Americas. All of these 
are heavily American influenced institutions because of the 
resources we have put in them, because of the lack of civilian 
control from our neighbors. All of them have various degrees of 
controversy. The function they fulfill in this new situation is 
indispensable and we should be talking about how to put them 
into the right framework and how to strengthen them. And that 
is where we need to make things work, not thinking about 
shooting guns or putting our people in jeopardy.
    Other countries want to solve this problem. You mentioned 
the extraordinary dedication of some of the Colombians that you 
have met. Let us not forget they have lost more soldiers and 
people in this war than can be--I do not have the number----
    Senator Coverdell. It is approaching the Vietnam--it is 
38,000.
    Ambassador Einaudi. It is extraordinary. They are putting 
their lives on the line. Let us work with them to make sure 
that they put them on the line as effectively as possible, that 
the use of force--and it is a question not of indiscriminate 
use of force. That is precisely the point, how to discriminate, 
how to apply effectively, how to support the creation of 
government authority where now, in all too many cases, there is 
not any.
    Senator Coverdell. Mr. Sweeney.
    Mr. Sweeney. Speaking about Colombia briefly, a lot of 
people have died in the conflict in Colombia. But it is 
interesting to note in Colombia that as many people 
approximately die in 2 years as American soldiers died in the 
entire Vietnam war. It is also interesting to note that about 
85 percent of the people who die violently do not die as a 
result of political violence, they die as a result of criminal 
violence in Colombia. So, that is an important point I think 
that needs to be made.
    I think there are certain things, certain opportunities the 
United States could have made use of in recent years, which we 
have not made use of. I am not a diplomat. I am a journalist by 
profession and I have been in business for myself before I came 
to Washington. But it seems to me that reciprocity and 
negotiation are the tools of a good, effective diplomat. Let me 
give you two examples: the Caribbean and Central America.
    We have been trying unsuccessfully for 6 years to approve 
NAFTA parity for the Caribbean Basin Initiative countries. More 
recently the United States has been conducting a banana war 
with the European Union basically favoring one or two major 
U.S. multinational corporations but putting the Caribbean 
community in a situation that they face economic distress. It 
seems to me that a well-reasoned diplomatic response to our 
friends in Central America and the Caribbean would seek to 
balance out our concerns for defending the free trade interests 
of our American exporters with preserving and protecting our 
security interests in the region as well. There is an example 
of reciprocity that has not been forthcoming from the United 
States and which has created ill will amongst the Caribbean 
nations toward us, to the point that they have threatened to 
stop cooperating in the war on drugs.
    Let me give you a second and more important----
    Senator Coverdell. There are several maritime agreements 
that they are threatening----
    Mr. Sweeney. A second and more important issue, the case of 
Colombia which has become the epicenter of this country's 
foreign policy in Latin America, the war on drugs in Colombia. 
We have for years been demanding that the Colombians do more 
and better in fighting the war on drugs, and then we fail to 
give them systematically year after year the kinds of resources 
and equipment and material they need. The helicopters that we 
have given the Colombians until recently, now that we have 
approved Blackhawks for them, but until recently we have been 
giving them Vietnam era Huey helicopters that cannot even 
operate at the ceilings where the poppy crops and a lot of the 
coca crops--they do not have the range to reach these crops.
    If we want to work with the Colombian Government, and we 
expect the Colombian Government to do more in fighting the war 
on drugs, then the United States must give Colombia the 
resources it needs to fight that war, whether we sell them the 
resources or grant them the resources as a gift, whatever it 
is. We cannot ask our friends to fight an 800-pound gorilla 
with a fly swatter. And that is what we have been doing for the 
last 5 years.
    Senator Coverdell. I am going to bring us to a close. We 
have been at this about an hour and a half. I want to thank 
each of you panelists for your illuminating remarks and your 
dedication to your country over the years.
    We will probably submit several written questions to each 
of you, and again, it is at your discretion. You are not 
agencies, so we cannot demand that you respond to them. But 
whatever information you might share with us would be most 
helpful.
    I would just say in concluding then that we all began with 
the good news, but clearly there is a cloud here that has to be 
confronted and pretty quickly because it does have the 
potential of destabilization and it is enormously forceful and 
powerful. You have all alluded to it in varying ways.
    This has been most helpful to me and I am sure it will be 
others as well as we try to fashion how we are going to move to 
the new millennium in our relations with the hemisphere.
    I think one of the pieces of good news that has not really 
been mentioned here is the general attitude of our fellow 
countrymen. I mean, I think there is a growing integration 
mentally of the economic prowess of the hemisphere. You can go 
to in my State any rural community, and they are very much 
aware of their relationship with the hemisphere because it is 
affecting them. It is affecting jobs and opportunities. So, 
some of the traditional problems that have existed and mind 
sets I think are vanishing, which I think is a very positive 
sign and may be the undergirding that allows us to move to 
these other issues because I think the Nation is prepared to be 
more involved with this hemisphere, whether the politician is 
or is not for the time being. I really think that is a strong 
possibility among our own countrymen and probably the will or 
the backbone upon which we can build some of these new ideas.
    Again, I thank each of you very, very much.
    [Whereupon, at 4:27 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
